<html>
<title> - INSERT TITLE HERE THE AUTHORIZATION OF USE OF FORCE IN SYRIA</title>
<body><pre>[Senate Hearing 113-479]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-479
 
              INSERT TITLE HERE THE AUTHORIZATION OF USE
                           OF FORCE IN SYRIA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED THIRTEENTH CONGRESS



                             FIRST SESSION



                               __________

                INSERT DATE HERE deg.SEPTEMBER 3, 2013

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov


                       U.S. GOVERNMENT PRINTING OFFICE

91-222 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS

            ROBERT MENENDEZ, New Jersey, Chairman
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
              Daniel E. O'Brien, Staff Director
       Lester E. Munson III, Republican Staff Director

                             (ii)


                            C O N T E N T S

                              ----------
                                                                   Page

    Corker, Hon. Bob, U.S. Senator from New Jersey...............     4
    Hagel, Hon. Chuck, U.S. Secretary of Defense.................    11
      Prepared statement.........................................    13
    Kerry, Hon. John F., U.S. Secretary of State.................     6
    Menendez, Hon. Robert, U.S. Senator from New Jersey..........     1

              Additional Material Submitted for the Record

    Responses to Questions for the Record Submitted to Secretary
  of State John Kerry from Senator John Barrasso.................    64
    Responses to Questions for the Record Submitted to Secretary
  of Defense Chuck Hagel from Senator John Barrasso..............    66

                                 (iii)




                       THE AUTHORIZATION OF USE
                           OF FORCE IN SYRIA

                              ----------


                       TUESDAY, SEPTEMBER 3, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington, DC
    The committee met, pursuant to notice, at 2:38 p.m., in
Room SH-216, Hart Senate Office Building, Hon. Robert Menendez,
chairman of the committee, presiding.
    Present. Senators Menendez [presiding], Boxer, Cardin,
Shaheen, Coons, Durbin, Udall, Murphy, Kaine, Markey, Corker,
Risch, Rubio, Johnson, Flake, McCain, Barrasso, and Paul.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations
Committee will come to order.
    Let me first say that--neither actions of approval or
disapproval from the audience. We welcome you to be here on
this important occasion, but we welcome you to be observers of
this important occasion. And the chair will not tolerate
actions that are in violation of the committee rules.
    Let me welcome Secretary Kerry back to the committee that
he chaired, Secretary Hagel on a committee that he served on,
and the Chairman of the Joint Chiefs of Staff, General Dempsey,
to the committee.
    We convene this hearing, as we have convened many before,
to make one of the most difficult decisions we are asked and
tasked to make--the authorization of the use of American
military power. This time in Syria to respond to the horrific
chemical attack of August 21st that took the lives of 1,429
Syrians, including at least 426 children.
    The images of that day are sickening, and in my view, the
world cannot ignore the inhumanity and the horror of this act.
I do not take our responsibility to authorize military force
lightly or make such decisions easily. I voted against the war
in Iraq and strongly have supported a withdrawal of U.S. troops
from Afghanistan. But today, I support the President's decision
to use military force in the face of this horrific crime
against humanity.
    Yes, there are risks to action, but the consequences of
inaction are greater and graver still: Further humanitarian
disaster in Syria, regional instability, the loss of American
credibility around the world, an emboldened Iran and North
Korea, and a disintegration of international law.
    This decision will be one of the most difficult any of us
will be asked to make, but it is our role as representatives of
the American people to make it, to put aside political
differences and personal ideologies, to forget partisanship and
preconceptions, to forget the polls, the politics, and even
personal consequences. It is a moment for a profile in courage
and to do what one knows is right.
    It is our responsibility to evaluate the facts, assess the
intelligence we have, and then debate the wisdom and scope of a
military response fully and publicly, understanding its
geopolitical ramifications and fully aware of the consequences.
At the end of the day, each of us will decide whether to vote
for or against a resolution for military action based on our
assessments of the facts and our conscience.
    The decision rests with us. It is not political. It is a
policy decision that must be based, I believe, on what we
believe is in the national security interests of the United
States.
    To be clear, the authorization we will ultimately seek is
for focused action with a clear understanding that American
troops will not be on the ground in combat, and the language
before us is but a starting point.
    The President has decided to ask Congress for our support.
Now the eyes of the world are upon us. The decision we make,
the resolution we present to the Senate, and the votes we take
will reverberate around the world.
    Our friends and allies await our decision, as does the
despot in Pyongyang, the ayatollahs of terror in Tehran, and
terrorist groups wherever they may be. What we do in the face
of the chemical attack by the Assad regime against innocent
civilians will send a signal to the world that such weapons in
violation of international law cannot be used with impunity.
    The question is, will we send a message that the United
States will not tolerate the use of chemical weapons anywhere
in the world, by anyone, for any reason? Will we, in the name
of all that is human and decent, authorize the use of American
military power against the inexcusable, indiscriminate, and
immoral use of chemical weapons? Or will we stand down?
    What message do we send the world when such a crime goes
unpunished? Will those who have these weapons use them again?
Will they use them more widely and kill more children? Will
they use them against our allies, against our troops or
embassies? Or will they give them or sell them to terrorists
who would use them against us here at home?
    Are we willing to watch a slaughter just because the
patrons of that slaughter are willing to use their veto at the
United Nations to allow it to happen so their beneficiary can
stay in power? And are we so tired of war that we are willing
to silence our conscience and accept the consequences that will
inevitably flow from that silence to our national interests?
    We will hear the arguments and the options presented to us
today, and we will look at the facts as we know them according
to the declassified assessment released last Friday that
Secretary Kerry has so passionately presented to the Nation.
According to that assessment, we know with high confidence from
the intelligence community that the Syrian government carried
out a chemical weapons attack in the Damascus suburbs on August
21st.
    We know that the Assad regime has stockpiled chemical
agents, including mustard, sarin, and VX gas, and has thousands
of munitions capable of delivering them. We know that President
Bashar al-Assad makes the decisions when it comes to the
regime's stockpile of chemical agents and that personnel
involved in the program are carefully vetted to ensure loyalty
to the regime and the security of the program.
    We have evidence that chemical weapons have been used on a
smaller scale against the opposition on several other occasions
in the past year, including in the Damascus suburbs, that sarin
gas has been used on some of those occasions and that it was
not the opposition that used it.
    We know that chemical weapons personnel from the Syrian
Scientific Studies and Research Center, subordinate to the
regime's Ministry of Defense, were operating in the Damascus
suburb of Adra from Sunday, August 18th until early in the
morning on Wednesday, August 21st near an area the regime uses
to mix chemical weapons, including sarin.
    And human intelligence as well as signal and geospatial
intelligence have shown regime activity in the preparation of
chemicals prior to the attack, including the distribution and
use of gas masks.
    We have multiple streams of intelligence that show the
regime launched a rocket attack against the Damascus suburbs in
the early hours of August 21st, and satellite corroboration
that the attacks were launched from a regime-controlled area
and struck neighborhoods where the chemical attacks reportedly
occurred, clearly tying the pieces together. That is what we
know in terms of who deployed these weapons.
    More evidence is available, and we will be looking at all
of the classified information in a closed session of the
committee tomorrow that more clearly establishes the use of
chemical weapons by the regime, the military responses
available to us, and the results we expect from those
responses.
    But as of now, in my view, there is a preponderance of
evidence beyond a reasonable doubt that Assad's forces
willfully targeted civilians with chemical weapons. Having said
that, at the end of the day, the chemical weapons attack
against innocent civilians in Syria is an indirect attack on
America's security, with broader implications for the region
and the world.
    If chemical weapons can be used with impunity in violation
of a Geneva protocol crafted by the League of Nations and
signed by the United States in 1925--in fact, signed by Syria
itself in 1968--they can be used without fear of reprisal
anywhere, by anyone. And in my view, such heinous and immoral
violations of decency demand a clear and unambiguous response.
    We are at a crossroads moment. A precedent will be set
either for the unfettered and unpunished use of chemical
weapons, or a precedent will be set for the deterrence of the
use of such weapons through the limited use of military force
that sends a message that the world will not stand down.
    We will either send a message to Syria, Iran, North Korea,
Hezbollah, al-Qaeda, and any other nonstate actors that the
world will not tolerate the senseless use of chemical weapons
by anyone, or we will choose to stand silent in the face of
horrific human suffering.
    We need to consider the consequences of not acting. Our
silence would be a message to the Ayatollah that America and
the world are not serious about stopping their march to
acquiring nuclear weapons. Israel would no longer believe that
we have their back and would be hard pressed to restrain
itself.
    Our silence would embolden Kim Jong-un, who has a large
chemical weapons cache, and would send a message that we are
not serious about protecting South Korea and the region from
nuclear or chemical weapons, and would embolden Hezbollah and
Hamas to redouble their efforts to acquire chemical weapons,
and they might succeed.
    Clearly, at the end of the day, our national security is at
stake.
    I want to thank our distinguished witnesses who will
present the facts as they know them. We will evaluate them,
debate a resolution, and at the end of the day, each of us will
decide whether to send a message to the world that there are
lines we cannot cross as civilized human beings or stand silent
and risk new threats.
    Let me say before I turn to Senator Corker for his opening
statement, the President is asking for an authorization for the
use of limited force. It is not his intention or ours to
involve ourselves fully in Syria's civil war.
    What is before us is a request, and I quote, ``to prevent
or deter the use or proliferation of chemical or biological
weapons within, to, or from Syria and to protect the United
States and its allies and partners against the threat posed by
such weapons.''
    This is not a declaration of war, but a declaration of our
values to the world. A declaration that says we are willing to
use our military power when necessary against anyone who dares
turn such heinous weapons on innocent civilians anywhere in the
world.
    We know the facts. We will hear the arguments. We will have
the debate, and then it will be up to each of us to search our
conscience and make a decision on behalf of the American
people. I trust that we can achieve that in a bipartisan way.
    I have been working with Senator Corker as we move toward a
resolution, but I hope we will get broad bipartisan support.
And before I turn to him, I just want to acknowledge the
presence, and we are thrilled to see her here today, of Teresa
Heinz Kerry to join us in this momentous occasion. I am glad to
see you so well and being here with us.
    And with that, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, I thank you for your comments
and the time that we spent together recently.
    And I want to thank our witnesses for being here not only
for their service to our country in their current capacity, but
in their service in every way for many, many years. I thank you
for being here.
    Today, you are beginning the formal request of asking each
of us to make the most important decision many of us will make
during our tenure in the United States Senate. And I know that
everybody here on the dais and those who are not take that
decision very seriously.
    I have noticed a distinct sense of humility as we have gone
about the various questions, conference calls, the earlier
meetings we have had today and previously this week, and I know
that every member here knows that whether they decide to
support an authorization for the use of military force or not,
they are making a decision about our country's national
interests. And I know that everybody is going to be taking that
decision very, very seriously.
    One of the issues that many members will have is the fact
that should we support an authorization for the use of military
force--and I think that everyone here knows that I am very
generally inclined to do so and am working closely with Senator
Menendez for something that will be a starting point for this
committee's discussions, and I know each member will have input
and will have the opportunity to put thier imprint on what it
is that we end up deciding to vote upon--but one of the
problems that members have, and I think this hearing and
tomorrow's hearing is important to answer, is while we make
policy, you implement policy. And the implementation of this is
very, very important, and I think there have been mixed signals
about what that implementation actually is going to mean and
the effect it is going to have on the country that we are
involved in.
    I want to say that I was just in the region, as I know many
people have been, and I am still totally dismayed by the lack
of support we are giving to the vetted moderate opposition. We
publicly stated what that support is going to be, even though
it is being carried out in a covert way.
    But it is to some degree humiliating to be in a refugee
camp when our policy has been that we are going to train, we
are going to equip, we are going to give humanitarian aid to
the vetted opposition, and yet when you sit down with the
people who are coalescing around this, like General Idris and
others, very little of that has occurred.
    So I know today's focus is going to be largely on the issue
of chemical warfare, and I know that the case has to be made,
and I know that each of us has had the opportunity to hear that
case, to see the intelligence, to understand on what basis
these claims have been made. And my guess is that most everyone
here fully believes that chemical weapons have been used on
civilians to a large degree.
    So I know that case is going to be made to the American
people today, as you are making it to us. But it is my hope
that a big part of what you are going to do here today, and I
know we talked about this earlier this morning at the White
House, but is to make a case as to why Syria is important to
our national interests, why Syria matters to the region, why it
is important for us to carry out this stated strategy, and how
we are going to continue to carry out that stated strategy.
    One of the things that I do not want to see in this
authorization is after - if it is authorized and force takes
place-I want to see us, I want to see us continue to carry out
the strategy that has been stated, and that is building the
capacity of the vetted moderate opposition. So I would like to
have you address that.
    I would like to have you today also address how this use of
military force supports that strategy, how it is going to
affect the region in the aftermath.
    So I thank you for being here today. I know a big part of
what we are discussing today is the effect that our decisions
will have on the credibility of the United States of America. I
know that people in the region are watching. I know that we
have been hesitant to move on with many of the activities that
we have stated we are going to be carrying out.
    So, today, I hope that each of you will bring clarity to
this. I know we are going to talk about chemical warfare, but I
hope you will give us even more clarity about our opposition
strengthening, about how this is going to affect us overall,
and I hope we will all leave here today with a clear
understanding of how this strategy is going to be carried out.
    I thank you, and I look forward to your testimony.
    The Chairman. Secretary Kerry.

     STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE,
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, Mr. Chairman, members of the
committee, Ranking Member Corker, thank you very, very much for
having us here today. We look forward to this opportunity to be
able to share with you President Obama's vision with respect to
not just this action but, as Senator Corker has inquired
appropriately, about Syria itself and the course of action in
the Middle East.
    Mr. Chairman, thank you for welcoming Teresa. This is her
first public event since early July. So we are all happy she is
here.
    As we convene for this debate, it is not an exaggeration to
say to you--all of you, my former colleagues--that the world is
watching not just to see what we decide, but it is watching to
see how we make this decision, whether in a dangerous world we
can still make our Government speak with one voice. They want
to know if America will rise to this moment and make a
difference.
    And the question of whether to authorize our Nation to take
military action is, as you have said, Mr. Chairman, and you
have echoed, Mr. Ranking Member, this is obviously one of the
most important decisions, one of the most important
responsibilities of this committee or of any Senator in the
course of a career.
    The President and the administration appreciate that you
have returned quickly to the Nation's capital to address it and
that you are appropriately beginning a process of focusing with
great care and great precision, which is the only way to
approach the potential use of military power.
    Ranking Member Corker, I know that you want to discuss, as
you said, why Syria matters to our national security and our
strategic interests beyond the compelling humanitarian reasons,
and I look forward, with Secretary Hagel and General Dempsey,
to laying that out here this afternoon.
    But first, it is important to explain to the American
people why we are here. It is important for people who may not
have caught every component of the news over the course of the
Labor Day weekend to join us, all of us, in focusing in on what
is at stake here. That is why the President of the United
States made the decision as he did, contrary to what many
people thought he would do, of asking the Congress to join in
this decision. We are stronger as a Nation when we do that.
    So we are here because against multiple warnings from the
President of the United States, from the Congress, from our
friends and allies around the world, and even from Russia and
Iran, the Assad regime, and only undeniably the Assad regime,
unleashed an outrageous chemical attack against its own
citizens. We are here because a dictator and his family's
personal enterprise, in their lust to hold onto power, were
willing to infect the air of Damascus with a poison that killed
innocent mothers, and fathers, and hundreds of their children,
their lives all snuffed out by gas in the early morning of
August 21st.
    Now, some people here and there amazingly have questioned
the evidence of this assault on conscience. I repeat here again
today that only the most willful desire to avoid reality can
assert that this did not occur as described, or that the regime
did not do it. It did happen, and the Assad regime did it.
    Now, I remember Iraq. Secretary Hagel remembers Iraq.
General Dempsey especially remembers Iraq. But Secretary Hagel
and I and many of you sitting on the dais remember Iraq in a
special way because we were here for that vote. We voted. And
so we are especially sensitive, Chuck and I, to never again
asking any member to take a vote on faulty intelligence.
    And that is why our intelligence community has scrubbed and
re-scrubbed the evidence. We have declassified unprecedented
amounts of information, and we ask the American people and the
rest of the world to judge that information. We can tell you
beyond any reasonable doubt that our evidence proves the Assad
regime prepared for this attack, issued instructions to prepare
for this attack and warned its own forces to use gas masks. And
we have physical evidence of where the rockets came from and
when. Not one rocket landed in regime-controlled territory, not
one. All of them landed in opposition-controlled or contested
territory.
    We have a map, physical evidence, showing every
geographical point of impact, and that is concrete. Within
minutes of the attack--90 I think to be precise, maybe slightly
shorter--the social media exploded with horrific images of the
damage that had been caused, men and women, the elderly, and
children sprawled on a hospital floor with no wounds, no blood,
but all dead. Those scenes of human chaos and desperation were
not contrived. They were real. No one could contrive such a
scene.
    We are certain that none of the opposition has the weapons
or capacity to affect a strike of this scale, particularly from
the heart of regime territory. Just think about it in logical
terms, common sense. With high confidence, our intelligence
community tells us that after the strike, the regime issued
orders to stop, and then fretted openly, we know, about the
possibility of U.N. inspectors discovering evidence.
    So then, they began to systematically try to destroy it,
contrary to my discussion with their foreign minister, who said
we have nothing to hide. I said, if you have nothing to hide,
then let the inspectors in today and let it be unrestricted. It
was not. They did not. It took four days of shelling before
they finally allowed them in under a constrained pre-arranged
structure. And we now have learned that the hair and blood
samples from first responders in East Damascus has tested
positive for signatures of sarin.
    So, my colleagues, we know what happened. For all the
lawyers, for all the former prosecutors, for all those who have
sat on a jury, I can tell you that we know these things beyond
the reasonable doubt that is the standard by which we send
people to jail for the rest of their lives.
    So we are here because of what happened two weeks ago, but
we are also here because of what happened nearly a century ago
in the darkest moments of World War I and after the horror of
gas warfare when the vast majority of the world came together
to declare in no uncertain terms that chemical weapons crossed
the line of conscience, and they must be banned from use
forever. Over the years that followed, over 180 countries,
including Iran, Iraq, and Russia, agreed, and they joined the
Chemical Weapons Convention. Even countries with whom we agree
on little agreed on that conviction.
    Now, some have tried to suggest that the debate we are
having today is about President Obama's red line. I could not
more forcefully state that is just plain and simply wrong. This
debate is about the world's red line. It is about humanity's
red line. And it is a red line that anyone with a conscience
ought to draw.
    This debate is also about Congress' own red line. You, the
United States Congress, agreed to the Chemical Weapons
Convention. You, the United States Congress, passed the Syria
Accountability Act, which says Syria's chemical weapons
``threaten the security of the Middle East and the national
security interests of the United States.'' You, the Congress,
have spoken out about grave consequences if Assad, in
particular, used chemical weapons. So I say to you, Senator
Corker, that is one of the reasons why Syria is important.
    And as we debate and the world watches, as you decide and
the world wonders, not whether Assad's regime executed the
worst chemical weapons attack of the 21st century. That fact, I
think, is now beyond question. The world wonders whether the
United States of America will consent through silence to
standing aside while this kind of brutality is allowed to
happen without consequence.
    In the nearly 100 years since the first global commitment
against chemical weapons, only two tyrants dared to cross the
world's brightest line. Now Bashar al-Assad has become the
third. And I think all of you know that history holds nothing
but infamy for those criminals, and history reserves also very
little sympathy for their enablers. So the reality is the
gravity of this moment. That is the importance of the decision
that this Congress faces and that the world is waiting to learn
about in these next days.
    Now, Ranking Member Corker asked a central question: Why
should Americans care beyond what I have just said, which ought
to be enough in the judgment of the President and this
administration. Well, it is clear that in addition to what I
have just mentioned about the Syria Accountability Act and the
threat to the Middle East, we cannot overlook the impact of
chemical weapons and the danger that they pose to a
particularly volatile area of the world in which we have been
deeply invested for years because we have great friends there.
We have allies there. We have deep interests there.
    Since President Obama's policy is that Assad must go, it is
not insignificant that to deprive Assad of the capacity to use
chemical weapons, or to degrade the capacity to use those
chemical weapons, actually deprives him of a lethal weapon in
this ongoing civil war, and that has an impact. That can help
to stabilize the region ultimately.
    In addition, we have other important strategic national
security interests, not just in the prevention of the
proliferation of chemical weapons, but to avoid the creation of
a safe haven in Syria or a base of operations for extremists to
use these weapons against our friends. All of us know that the
extremes of both sides are there waiting in the wings, working
and pushing and fighting. They would be desperate to get their
hands on these materials. And the fact is that if nothing
happens to begin to change the equation or the current
calculation, that area can become even more so an area of
ungoverned space where those extremists threaten even the
United States and, more immediately, if they get their hands on
their weapons, allies and friends of ours, like Jordan, or
Israel, or Lebanon, or others.
    Forcing Assad to change his calculation about his ability
to act with impunity can contribute to his realization that he
cannot gas or shoot his way out of his predicament. And as I
think you know, it has been the President's primary goal to
achieve a negotiated resolution, but you got to have parties
prepared to negotiate to achieve that.
    Syria is also important because, quite simply, and I cannot
put this to you more plainly than to just ask each of you to
ask yourselves, if you are Assad or if you are any one of the
other despots in that region, and the United States steps back
from this moment together with our other allies and friends,
what is the message? The message is that he has been granted
impunity, the freedom to choose to use the weapons again or
force us to go through this cycle again with who knows what
outcome after once refusing it. We would have granted him the
capacity to use these weapons against more people with greater
levels of damage because we would have stood and stepped away.
    As confidently as we know what happened in Damascus, my
friends, on August 21st, we know that Assad would read our
stepping away or our silence as an invitation to use those
weapons with impunity. And in creating impunity, we will be
creating opportunity, the opportunity for other dictators and/
or terrorists to pursue their own weapon of mass destruction,
including nuclear weapons.
    I will tell you there are some people hoping that the
United States Congress does not vote for this very limited
request the President has put before you. Iran is hoping you
look the other way. Our inaction would surely give them a
permission slip for them to at least misinterpret our
intention, if not to put it to the test. Hezbollah is hoping
that isolationism will prevail. North Korea is hoping that
ambivalence carries the day. They are all listening for our
silence.
    And if we do not answer Assad today, we will erode a
standard that has existed for those 100 years. In fact, we will
erode a standard that has protected our own troops in war, and
we will invite even more dangerous tests down the road.
    Our allies and our partners are also counting on us in this
situation--the people of Israel, of Jordan, of Turkey. Each
look next door and they see that they are one stiff breeze away
from the potential of being hurt, of their civilians being
killed as a consequence of choices Assad might make in the
absence of action. They anxiously await our assurance that our
word means something. They await the assurance that if the
children lined up in un-bloodied burial shrouds for their own
children, that we would keep the world's promise. That is what
they are hoping.
    So the authorization that President Obama seeks is
definitely in our national security interests. We need to send
to Syria and to the world, to dictators and terrorists, to
allies, and to civilians alike the unmistakable message that
when the United States of America and the world say ``never
again,'' we do not mean sometimes, we do not mean somewhere.
Never means never.
    So this is a vote for accountability. Norms and laws that
keep the civilized world civil mean nothing if they are not
enforced. As Justice Jackson said in his opening statement at
the Nuremberg trials, ``The ultimate step in avoiding periodic
wars, which are inevitable in a system of international
lawlessness, is to make statesmen responsible to the law.'' If
the world's worst despots see that they can flout with impunity
prohibitions against the world's worst weapons, then those
prohibitions are just pieces of paper. That is what we mean by
accountability, and that is what we mean by we cannot be
silent.
    So let me be clear. President Obama is not asking America
to go to war. And I say that sitting next to two men, Secretary
Hagel and Chairman Dempsey, who know what war is. Senator
McCain knows what war is. They know the difference between
going to war and what President Obama is requesting now. We all
agree there will be no American boots on the ground. The
President has made crystal clear we have no intention of
assuming responsibility for Syria's civil war. He is asking
only for the power to make clear, to make certain, that the
United States means what we say, that the world, when we join
together in a multilateral statement, mean what we say. He is
asking for authorization to degrade and deter Bashar al-Assad's
capacity to use chemical weapons.
    Now, some will undoubtedly ask, and I think appropriately,
what about the unintended consequences of action? Some fear a
retaliation that leads to a larger conflict. Well, let me put
it bluntly. If Assad is arrogant enough, and I would say
foolish enough, to retaliate to the consequences of his own
criminal activity, the United States and our allies have ample
ways to make him regret that decision without going to war.
Even Assad's supporters, Russia and Iran, say publicly that the
use of chemical weapons is unacceptable.
    Now, some will also question the extent of our
responsibility. To them I say, when someone kills and injures
hundreds of children with a weapon the world has banned, we are
all responsible. That is true because of treaties like the
Geneva Convention and the Chemical Weapons Convention, and, for
us, the Syria Accountability Act. But it is also true because
we share a common humanity and a common decency.
    This is not the time for arm chair isolationism. This is
not the time to be spectators to slaughter. Neither our country
nor our conscience can afford the cost of silence. We have
spoken up against unspeakable horror many times in the past.
Now we must stand up and act, and we must protect our security,
protect our values, and lead the world with conviction that is
clear about our responsibility.
    Thank you.
    The Chairman. Thank you, Mr. Secretary.
    Voice. The American people, they do not want--
    The Chairman. The committee will be in order. The committee
will be in order.
    Voice. We do not want to go to war. We do not want another
war.
    The Chairman. I would ask the police to restore order.
    Voice. Wait a minute. Nobody wants this war. Cruise
missiles, launching cruise missiles is another war. The
American people do not want this.
    The Chairman. Secretary Hagel?
    Secretary Kerry. Can I just before--you know, the first
time I testified before this committee when I was 27 years old,
I had feelings very similar to that protestor. And I would just
say that is exactly why it is so important that we are all here
having this debate, talking about these things before the
country. And that the Congress itself will act representing the
American people. And I think we all can respect those who have
a different point of view, and we do.
    The Chairman. Secretary Hagel?

          STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF
      DEFENSE, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Secretary Hagel. Mr. Chairman, thank you. Chairman
Menendez, and Ranking Member Corker, members of the committee,
as we all know, in the coming days Congress will debate how to
respond to the most recent chemical weapons attack in Syria. A
large-scale sarin gas assault perpetrated by the Syrian
government against its own people.
    As a former Senator and member of this committee, I welcome
this debate, and I strongly support President Obama's decision
to seek congressional authorization for the use of force in
Syria.
    As each of us knows, committing the country to using
military force is the most difficult decision America's leaders
can make, as Ranking Member Corker noted. All of those who are
privileged to serve our Nation have a responsibility to ask
tough questions before that commitment is made. The American
people must be assured that their leaders are acting according
to U.S. national interests, with well-defined military
objectives, with an understanding of the risks and the
consequences involved.
    The President, along with his national security team, asked
those tough questions before we concluded that the United
States should take military action against Syria because of
what the Assad regime has done.
    I want to address how we reached this decision by
clarifying the U.S. interests at stake, our military
objectives, and the risks of not acting at this critical
juncture.
    As President Obama said, the use of chemical weapons in
Syria is not only an assault on humanity; it is a serious
threat to America's national security interests and those of
our closest allies. The Syrian regime's use of chemical weapons
poses grave risks to our friends and partners along Syria's
borders, including Israel, Jordan, Turkey, Lebanon, and Iraq.
If Assad is prepared to use chemical weapons against his own
people, we have to be concerned that terrorist groups like
Hezbollah, which has forces in Syria supporting the Assad
regime, would acquire them and would use them.
    That risk of chemical weapons proliferation poses a direct
threat to our friends, our partners, and to U.S. personnel in
the region. We cannot afford for Hezbollah or any terrorist
group determined to strike the United States to have incentives
to acquire or use chemical weapons.
    The Syrian regime's actions risk eroding the nearly
century-old international norm against the use of chemical
weapons, which Secretary Kerry has noted, a norm that has
helped protect the United States' homeland and American forces
operating across the globe from those terrible weapons.
Weakening this norm could embolden other regimes to acquire or
use chemical weapons. For example, North Korea maintains a
massive stockpile of chemical weapons that threatens our treaty
ally, the Republic of Korea, and the 28,000 U.S. troops
stationed there.
    I have just returned from Asia where I had a very serious
and long conversation with South Korea's defense minister about
the threat, the real threat that North Korea's stockpile of
chemical weapons presents to them. Our allies throughout the
world must be assured that the United States will fulfill its
security commitments.
    Given these threats to our national security, the United
States must demonstrate through our actions that the use of
chemical weapons is unacceptable. The President has made clear
that our military objectives in Syria would be to hold the
Assad regime accountable, degrade its ability to carry out
these kinds of attacks, and deter the regime from further use
of chemical weapons.
    The Department of Defense has developed military options to
achieve these objectives, and we have positioned U.S. assets
throughout the region to successfully execute this mission. We
believe we can achieve them with a military action that would
be limited in duration and scope. General Dempsey and I have
assured the President that U.S. forces will be ready to act
whenever the President gives the order.
    We are also working with our allies and our partners in
this effort, key partners, including France, Turkey, Saudi
Arabia, United Arab Emirates, and friends in the region have
assured us of their strong support of U.S. action.
    In defining our military objectives, we have made clear
that we are not seeking to resolve the underlying conflict in
Syria through direct military force. Instead, we are
contemplating actions that are tailored to respond to the use
of chemical weapons. A political solution created by the Syrian
people is the only way to ultimately end the violence in Syria.
And Secretary Kerry is leading international efforts to help
the parties in Syria move toward a negotiated transition, a
transition that means a free and inclusive Syria.
    We are also committed to doing more to assist the Syrian
opposition, but Assad must be held accountable for using these
weapons in defiance of the international community.
    Having defined America's interests and our military
objectives, we also must examine the risks and the consequences
of action, as well as the consequences of inaction. There are
always risks in taking action. The Assad regime, under
increasing pressure by the Syrian opposition, could feel
empowered to carry out even more devastating chemical weapons
attacks without a response. Chemical weapons make no
distinction between combatants and innocent civilians, and
inflict the worst kind of indiscriminate suffering, as we have
recently seen.
    A refusal to act would undermine the credibility of
America's other security commitments, including the President's
commitment to prevent Iran from acquiring a nuclear weapon. The
word of the United States must mean something. It is vital
currency in foreign relations and international and allied
commitments.
    Every witness here today--Secretary Kerry, General Dempsey,
and myself--has served in uniform, fought in war, and seen its
ugly realities up close, as has already been noted, Senator
McCain. We understand that a country faces few decisions as
grave as using military force. We are not unaware of the costs
and ravages of war. But we also understand that America must
protect its people and its national interests. That is our
highest responsibility.
    All of us who have the privilege and responsibility of
serving this great Nation, owe the American people, and
especially those wearing the uniform of our country, vigorous
debate on how America should respond to this horrific chemical
weapons attack in Syria. I know everyone on this committee
agrees and takes their responsibility of office just as
seriously as the President and everyone sitting at this table.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Hagel follows:]

         Prepared Statement of Secretary of Defense Chuck Hagel

    Chairman Menendez, Ranking Member Corker, thank you for convening
this hearing.
    In the coming days, Congress will debate how to respond to the most
recent chemical weapons attack in Syria--a large-scale, and heinous,
sarin gas assault perpetrated by the Syrian government against its own
people.
    As a former Senator and member of this committee, I welcome this
debate and I strongly support President Obama's decision to seek
congressional authorization for the use of force in Syria.
    As each of us knows, committing the country to using military force
is the most difficult decision America's leaders can make. All of those
who are privileged to serve our nation have a responsibility to ask
tough questions before that commitment is made. The American people
must be assured that their leaders are acting according to U.S.
national interests, with well-defined military objectives, and with an
understanding of the risks and consequences involved.
    The President, along with his entire national security team, asked
those tough questions before we concluded that the United States should
take military action against Syrian regime targets. I want to address
how we reached this decision by clarifying the U.S. interests at stake,
our military objectives, and the risks of not acting at this critical
juncture.
    As President Obama said, the use of chemical weapons in Syria is
not only an assault on humanity--it is a serious threat to America's
national security interests and those of our closest allies.
    The Syrian regime's use of chemical weapons poses grave risks to
our friends and partners along Syria's borders--including Israel,
Jordan, Turkey, Lebanon and Iraq. If Assad is prepared to use chemical
weapons against his own people, we have to be concerned that terrorist
groups like Hezbollah, which has forces in Syria supporting the Assad
regime, could acquire them. This risk of chemical weapons proliferation
poses a direct threat to our friends and partners, and to U.S.
personnel in the region. We cannot afford for Hezbollah or any
terrorist group determined to strike the United States to have
incentives to acquire or use chemical weapons.
    The Syrian regime's actions risk eroding the nearly century-old
international norm against the use of chemical weapons--a norm that has
helped protect the United States homeland and American forces operating
across the globe from these terrible weapons. Weakening this norm could
embolden other regimes to acquire or use chemical weapons. For example,
North Korea maintains a massive stockpile of chemical weapons that
threatens our treaty ally, the Republic of Korea, and the 28,000 U.S.
troops stationed there. I have just returned from Asia, where I had a
very serious and long conversation with South Korea's Defense Minister
about the threat that North Korea's stockpile of chemical weapons
presents to them. Our allies throughout the world must be assured that
the United States will fulfill its security commitments.
    Given these threats to our national security, the United States
must demonstrate through our actions that the use of chemical weapons
is unacceptable.
    The President has made clear that our military objectives in Syria
would be to hold the Assad regime accountable, degrade its ability to
carry out these kinds of attacks, and deter the regime from further use
of chemical weapons.
    The Department of Defense has developed military options to achieve
these objectives, and we have positioned U.S. assets throughout the
region to successfully execute this mission. We believe we can achieve
them with a military action that would be limited in duration and
scope.
    General Dempsey and I have assured the President that U.S. forces
will be ready to act whenever the President gives the order. We are
also working with our allies and partners in this effort. Key partners,
including France, Turkey, Saudi Arabia, the United Arab Emirates, and
other friends in the region, have assured us of their strong support
for U.S. action.
    In defining our military objectives, we have made clear that we are
not seeking to resolve the underlying conflict in Syria through direct
military force. Instead we are contemplating actions that are tailored
to respond to the use of chemical weapons. A political solution created
by the Syrian people is the only way to ultimately end the violence in
Syria, and Secretary Kerry is leading international efforts to help the
parties in Syria move towards a negotiated transition. We are also
committed to doing more to assist the Syrian opposition. But Assad must
be held accountable for using these weapons in defiance of the
international community.Having defined America's interests and our
military objectives, we also must examine the risks and consequences of
action, as well as the consequences of inaction.
    There are always risks in taking action, but there are also risks
with inaction. The Assad regime, under increasing pressure by the
Syrian opposition, could feel empowered to carry out even more
devastating chemical weapons attacks. Chemical weapons make no
distinction between combatants and innocent civilians, and inflict the
worst kind of indiscriminate suffering, as we have recently seen.
    A refusal to act would undermine the credibility of America's other
security commitments--including the President's commitment to prevent
Iran from acquiring a nuclear weapon. The word of the United States
must mean something. It is vital currency in foreign relations and
international and allied commitments.
    Every witness here today--Secretary Kerry, General Dempsey, and
myself--has served in uniform, fought in war, and seen its ugly
realities up close. We understand that a country faces few decisions as
grave as using military force. We are not unaware of the costs and
ravages of war. But we also understand that America must protect its
people and its national interests. That is our highest responsibility.
    All of us who have the privilege and responsibility of serving this
great nation owe the American people, and especially those wearing the
uniform of our country, a vigorous debate on how America should respond
to the horrific chemical weapons attack in Syria. I know everyone on
this committee agrees, and takes their responsibility of office just as
seriously as the President and everyone at this table.
    Thank you.


    The Chairman. Thank you, Secretary Hagel. And I know that
General Dempsey is available to answer questions from the
members of the committee. And in that regard, let me start of
by urging members, tomorrow there will be an intelligence
briefing for the committee on both the issues at hand, as well
as potential military action. So in this setting, we are
obviously somewhat constrained about what we might discuss with
greater specificity tomorrow.
    Mr. Secretary, you make, and have made, a compelling case,
and I think it is important, and I appreciate you reiterating
the high degree of confidence that exists in our intelligence
assessments. I think those are conditions precedent to be able
to move forward.
    This weekend, I was at a soccer tournament, and I had a
group of moms come up to me and say, ``Senator, we saw those
pictures. They are horrific. We cannot imagine the devastation
those parents must feel about their children. But why us? Why
us?'' And so, I ask you, would you tell them that we would be
more secure or less secure by the actions that are being
considered, actions for which the President has asked for the
authorization of the use of force?
    Secretary Kerry. Senator, I would say unequivocally that
the President's actions will make us more secure, less likely
that Assad can use his weapons or chooses to use his weapons.
And the absence of taking the action the President has asked
for will, in fact, be far more threatening and dangerous, and
potentially ultimately cost lives.
    The Chairman. And do you consider the consequences of
inaction greater than the consequences of action?
    Secretary Kerry. I do.
    The Chairman. General Dempsey, what do we see as the result
of this military campaign, in broad terms of its effect? What
do we expect to see at the end of any authorized action; what
do we think the results will look like? What is our
expectation?
    General Dempsey. Yes, thank you, Mr. Chairman. The task I
have been given is to develop military options to deter; that
is to say, change the regime's calculus about the use of
chemical weapons, and degrade his ability to do so; that is to
say, both activities directly related to chemical weapons
themselves, but also to the means of employing them. And
anything beyond that, I would prefer to speak about it in a
classified setting.
    The Chairman. I understand that. Let me ask you this. In
the process of achieving those two goals that you just
outlined, would there not be a collateral consequence to the
regime of further degrading its overall capabilities?
    General Dempsey. Yes.
    The Chairman. Mr. Secretary, we received from the
administration a proposed resolution for the authorization of
force. And, of course, that is a negotiation between the
Congress and the administration. Would you tell us whether you
believe that a prohibition for having American boots on the
ground is something that the administration would accept as
part of a resolution?
    Secretary Kerry. Mr. Chairman, it would be preferable not
to, because there is no intention, or any plan, or any desire
whatsoever, to have boots on the ground. I think the President
will give you every assurance in the world, as am I, as is the
Secretary of Defense, and General Dempsey. But in the event
Syria imploded, for instance, or in the event there was a
threat of a chemical weapons cache falling into the hands of
al-Nusra or someone else, and it was clearly in the interest of
our allies and all of us--the British, the French, and others--
to prevent those weapons of mass destruction falling into the
hands of the worst elements--I do not want to take off the
table an option that might or might not be available to the
President of the United States to secure our country. So that
was the only kind of example--it is the only thing I can think
of that would immediately leap to mind to say, no.
    The Chairman. Well, if we said that there would be no
troops on the ground for combat purposes, that clearly, I
assume--
    Secretary Kerry. Well, assuming that in the going to
protect those weapons, whether or not they have to, you know,
answer a shot in order to be secure, I do not want to speak to
that.
    The bottom line is this--can I give you the bottom line?
    The Chairman. We are going to have to work to find--
    Secretary Kerry. I am absolutely confident, Mr. Chairman,
that it is easy, not that complicated, to work out language
that will satisfy the Congress and the American people that
there is no door open here through which someone can march in
ways that the Congress does not want it to while still
protecting the national security interests of the country. I am
confident that could be worked out.
    The Chairman. Well, I--
    Secretary Kerry. The bottom line is, the President has no
intention, and will not, and we do not want to, put American
troops on the ground to fight this or be involved in the
fighting of the civil war period.
    The Chairman. I appreciate that, and I appreciate the
response about chemical weapons and the possibility of securing
them in our national security interests, as well as our allies.
But I do think we are going to have to work on language that
makes it clear that this is an overriding issue that I think
members, as well as the American people, want to know.
    Let me ask you, what--you mentioned it in your remarks.
What do you think is the calculus of Iran, North Korea, if we
fail to act? And what is the calculus of our allies if we fail
to act?
    Secretary Kerry. Well, if we fail to act, we are going to
have fewer allies. I think we are going to have fewer people
who count on us--certainly in the region. We have huge doubts
right now. I hear them. I mean, you know, I have the privilege
of talking with many of the leaders of these countries with
respect to what they may or may not be inclined to do. I have
heard their warnings very clearly about what is at stake, not
just for them, but for us, in the region. And I think that it
is fair to say that our interests would be seriously set back
in many respects if we are viewed as not capable--or willing,
most important--to follow through on the things that we say
matter to us.
    As I said earlier in my testimony, this really is not
President Obama's red line. The President drew a line that
anyone should draw with respect to this convention that we have
signed, and which has been in place since the horrors of World
War I. And the truth is that through all of World War II,
through Vietnam, through Korea, through both Gulf wars, through
Afghanistan, through Iraq, the combatants in those efforts have
never resorted to this use.
    So I think that it is clear, with those prior usages that I
referred to, that we would be opening Pandora's box with
respect to a whole set of dangerous consequences as a result of
the United States not keeping its word. And it would make our
life very, very difficult with North Korea and Iran.
    There is no question in my mind that those countries are
watching, the mullahs and many others are watching what we are
doing now with great interest. And that is why even the quality
of this debate, and the nature of this debate, are very
important.
    The Chairman. Thank you.
    Senator Corker.
    Senator Corker.  Thank you, Mr. Chairman. And again, thank
you for your testimony.
    I want to first thank you for bringing this to Congress. I
think our foreign policy through the years has been far too
focused on the administration. I do not think Congress has
played the role that it should play in foreign policy, and I
want to thank you for bringing it here and giving us the
opportunity to have this debate in advance.
    I want to focus a little bit on our strategy with the
vetted opposition. I do not know how anybody--as a matter of
fact, I know of no one--who has been to the area and spent time
with opposition that is not incredibly dismayed by the lack of
progress that is occurring there. I know there is a lot of
capacity that has to be built. I know there are interagency
discussions about whether we should move to industrial-strength
training, move away from the kind of activities that are taking
place now to build capacity more quickly.
    And I just would like, for whichever one of you wants to
respond, to talk with us, those of us who have been to the
region, who do believe that Syria is important, who are
watching what is happening in Iraq as this sectarian issue
moves there. It is moving into Lebanon. It is moving; it is
certainly destabilizing Jordan.
    Why have we been so slow, so inept in so many ways at
helping build capacity of this opposition that we have said
publicly that we support?
    Secretary Kerry. Well, Senator, it is a worthy and
important question.
    I have had a number of different meetings with the
opposition over the course of the months now, since I came in,
in February, beginning with a meeting in Rome, and subsequently
in Istanbul, and in Amman, Jordan. And the opposition, one has
to remember that as little as a year ago there was no great
clarity as to the structure of that opposition or even who they
were, and they certainly had had no experience in this kind of
an endeavor.
    Over the course of that year, they have evolved, I would
say, significantly. Are they where they need to be? Not
completely, but they have changed markedly over the course of
the last few months.
    At our insistence--and when I say ``our'' insistence, the
insistence of all of their supporters, the so-called ``London
11''--they reached out and expanded significantly their base
within Syria. They elected new leadership. They brought in a
much broader base of Syrian representation including women,
including minorities, Christians, others. And so, they have
built up a much more competent leadership.
    Senator Corker.  If I could, I have only got a few minutes.
    Secretary Kerry. Okay.
    Senator Corker.  I am very aware of all those things. What
I am unaware of is why it is so slow in actually helping them
with lethal support? Why has that been so slow?
    Secretary Kerry. I think, Senator, we need to have that
discussion tomorrow in classified session. We can talk about
some components of that. Suffice it to say that it is
increasing significantly. I want General Dempsey to speak to
this, maybe Secretary Hagel as well. It has increased in its
competency. I think it has made leaps and bounds over the
course of the last few months.
    Secretary Hagel, do you, or General, do you want to?
    Secretary Hagel. I would only add that it was June of this
year that the President made the decision to support lethal
assistance to the opposition. As you all know, we have been
very supportive with hundreds of millions of dollars of
nonlethal assistance.
    The vetting process, as Secretary Kerry noted, has been
significant, but I will ask General Dempsey if he wants to add
anything. But we, the Department of Defense, have not been
directly involved in this. This is, as you know, a covert
action and as Secretary Kerry noted, to go into much more
detail would require a closed or classified hearing.
    General Dempsey?
    Senator Corker.  As he is answering that, if he could be
fairly brief. Is there anything about the authorization that
you are asking that in any way takes away from our stated
strategy of empowering the vetted opposition to have the
capacity over time to join-in with a transition government as
we have stated from the beginning? Is there anything about this
authorization that in any way supplements that?
    General Dempsey. To your question about the opposition,
moderate opposition, the path to the resolution of the Syrian
conflict is through a developed, capable, moderate opposition,
and we know how to do that.
    Secondly, there is nothing in this resolution that would
limit what we are doing now, but we are very focused on the
response to the chemical weapons. I think that subsequent to
that, we would probably return to have a discussion about what
we might do with the moderate opposition in a more overt way.
    Senator Corker.  So, you know, I am very sympathetic to the
issue of chemical warfare, and very sympathetic to what this
means for U.S. credibility, and I am very sympathetic to the
fact that people are watching in the region, and this will have
an impact.
    But I want to say, I am not sympathetic regarding the lack
of effort that has taken place, in my opinion, on the ground as
it relates to the vetted opposition. And I hope the end state,
that you imagine here, is something that--while it will be
proportional and will be surgical--is something that enhances
the strategy that we have already laid in place. And I hope you
will answer that yes or no, at this time.
    General Dempsey. The answer to whether I support additional
support for the moderate opposition is yes.
    Senator Corker.  And this authorization will support those
activities in addition to responding to the weapons of mass
destruction?
    General Dempsey. I do not know how the resolution will
evolve, but I support those--
    Senator Corker.  But what you are seeking. What is it you
are seeking?
    General Dempsey. I cannot answer that, what we are seeking.
    Secretary Kerry. The action, if it is authorized, the
answer is, as I said in my opening comments, that a consequence
of degrading his chemical capacity inevitably will also have a
downstream impact on his military capacity.
    Senator Corker.  And is this only, this authorization, is
only about weapons of mass destruction?
    Secretary Kerry. That is correct. This authorization is a
limited, targeted effort to focus on deterring and degrading
the chemical weapons capacity of the Assad regime.
    Senator Corker.  Is that against any other enemies other
than the Assad regime?
    Secretary Kerry. No, Senator.
    Senator Corker.  Is it to be utilized in any other country
except inside Syria?
    Secretary Kerry. No, Senator.
    Senator Corker.  I will say that, in response to your
answer to Senator Menendez, I did not find that a very
appropriate response regarding boots on the ground. And I do
want to say that that is an important element to me, and I hope
that as we together work through this, we work through
something that is much clearer than the answer that you gave.
    While we all feel the actions by the Assad regime are
reprehensible, I do not think there are any of us here that are
willing to support the possibility of having combat boots on
the ground.
    Secretary Kerry. Well--
    Senator Corker.  And I do hope as we move through this, the
administration can be very clear in that regard.
    Secretary Kerry. Well, let me be very clear now, because I
do not want anything coming out of this hearing that leaves any
door open to any possibility. So let's shut that door now as
tight as we can.
    All I did was raise a hypothetical question about some
possibility, and I am thinking out loud about how to protect
America's interests. But if you want to know whether there is
any, you know, the answer is whatever prohibition clarifies it
to Congress and the American people, there will not be American
boots on the ground with respect to the civil war.
    Senator Corker.  Thank you.
    The Chairman. Thank you.
    Senator Boxer.
    Senator Boxer. Mr. Chairman and Senator Corker, thank you
so much for holding this hearing on a vote of conscience. And I
ask unanimous consent that my full statement be entered into
the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    Mr. Chairman and Senator Corker-thank you for holding this hearing
on a vote of conscience in reaction to Syria's use of chemical weapons
against its own people.
    The images of children gasping for air and young bodies lined up
row by row should shock the conscience of the world.
    Failure to act could give license to the Syrian President to use
these weapons again and send a terrible signal to other brutal regimes
like North Korea, which possesses a chemical weapons stockpile.
    Since I came to the Senate I voted against the 2003 Iraq War, but I
did vote for the use of force against Osama bin Laden in 2001. I did
vote to support military missile and air strikes against Serbia in
1999, but I opposed the military surge in Afghanistan in 2009.
    I approach this Syria issue in the same way that I approached
those--with a heavy heart and an independent mind.
    I have heard some of my colleagues compare President Obama's
position on Syria to the decision to invade Iraq in 2003.
    This is a false comparison.
    In Iraq, the Bush administration was trying to prove the existence
of an active weapons of mass destruction program in a country where
such a program did not exist.
    Here, we know that Assad has stockpiles of chemical weapons.
    In Iraq, the Bush administration was preparing to invade and occupy
a country with well over 100,000 U.S. troops.
    In this case, the President has been clear: No ground invasion. No
occupation. No comparison between Iraq and Syria.
    So why should we take targeted action against Syria?
    Because allowing the continued use of chemical weapons to go
unanswered makes it more likely that terrorists could obtain and use
them on America or our allies, including Israel. And it makes it more
likely that Iran will view us as a paper tiger when it comes to their
nuclear program.
    In 1997, the Senate supported a ban on chemical weapons by a vote
of 74-26.
    I voted to approve the Chemical Weapons Convention because chemical
weapons have no place in the civilized world and some behavior must be
out of bounds. Shouldn't an overwhelming vote like this mean something?
Shouldn't the Senate stand behind its words and actions?
    In 2003, we passed the Syria Accountability Act by a vote of 89-4--
legislation that I introduced which states that Syria's ``acquisition
of weapons of mass destruction . . . threatens the security of the
Middle East and the national security interests of the United States.''
    Shouldn't an overwhelming vote like this mean something? Shouldn't
the Senate stand behind its words and actions?
    Not only has our President drawn a red line on the use of chemical
weapons, so did the Senate with the passage of the Syria Accountability
Act and ratification of the Chemical Weapons Convention.
    I know there is tremendous reluctance to get involved in another
military effort and sometimes the easiest thing to do when others
suffer is to walk away. Well, I don't believe we should close our eyes
to this clear violation of long-standing international norms. I believe
America's morality, America's reputation, and America's credibility are
on the line.
    I applaud President Obama for coming to Congress and will support a
targeted response to Syria's unspeakable deeds to gas its own people to
death.


    Senator Boxer. So I am going to make a brief statement
because a lot of people have been asking me how I view this,
including my own constituents. And then I will ask some
questions about the intel, if I can.
    Mr. Chairman, thank you for showing us those images of
children because even though it is really hard to look at, we
have to look at it. Children gasping for air, young bodies
lined up in a row should shock the world.
    And the failure to act, I think, gives license to the
Syrian President to use these weapons again. And it sends a
terrible signal to other brutal regimes, like North Korea. And
can I thank you, Secretary Hagel, for bringing up the issue of
North Korea in your opening statement, and you, Secretary
Kerry, for bringing it up? I mean, how many of us have been
there to the line where we see thousands of our troops standing
there, just a stone's throw away from North Korea? We need to
think about it. Maybe because I am from California, I tend to
look at Asia, but this is very serious. We see that danger up
close when we go to that line.
    Now, since I came to the Senate, I voted against the Iraq
war, but I did vote for the use of force against Osama bin
Laden. I voted to support air strikes against Serbia, but I
vocally opposed the military surge in Afghanistan. So I
approach this Syria issue in the same way I approached those:
With a very heavy heart and a very independent mind.
    I have heard some of my colleagues compare President
Obama's position on Syria to the decision to invade Iraq in
2003, and I thank Secretary Kerry for discussing this because I
believe it is a totally false comparison. And I know it has
been mentioned before; you drew that line again.
    In Iraq, the Bush administration prepared to invade and
occupy a country with well over 100,000 U.S. troops. In this
case, the President has been clear: no ground invasion. No
occupation. We will have that in our resolution.
    So why should we take any targeted action against Syria?
Not only is it important to keep North Korea in mind, but also
allowing the continued use of chemical weapons to go
unanswered, makes it much more likely that we will see them
used again in Syria, and we will see them used maybe elsewhere.
And terrorists could obtain those chemical weapons and use them
on America, or our allies, or our troops. Use them, for
example, against Israel and other friends. It makes it more
likely--and this is key--that Iran will view us as a paper
tiger when it comes to their nuclear program, and that is
dangerous, not only for us and our friends, but for the world.
    Now, in 1997, the Senate supported a ban on chemical
weapons by a vote of 74 to 26. Should not an overwhelming vote
like that mean something? Should not the Senate stand behind
its words and actions? And then, in 2003, we passed the Syria
Accountability Act by a vote of 89 to 4. I wrote that bill with
Senator Santorum. We had a huge vote in favor of it. This is
what it says, ``acquisition of weapons of mass destruction . .
. threatens the security of the Middle East and the national
security interests of the United States.'' Should not an
overwhelming vote like that meant something? Should not the
Senate stand behind its words and its actions?
    So, I believe, as Secretary Kerry said, and I will
reiterate it, that not only has our President drawn a line, a
red line, on the use of chemical weapons, and not only has the
world done so, but we, in the Senate, we did so.
    Now, I know there is tremendous reluctance to get involved
in another military effort. And sometimes the easiest thing to
do is to walk away. Well, I believe we cannot close our eyes to
this clear violation of longstanding international norms. I
believe America's morality, America's reputation, and America's
credibility are on the line.
    I applaud this administration and our President for coming
to Congress. I applaud those who asked him to come to Congress.
It is the right thing to do, and I will support a targeted
effort, but not a blank check, to respond to Syria's
unspeakable deeds to gas its own people to death.
    Now, my question involves the intel here, and I do not know
how much you can give us, so I am going to try to make this
pretty broad, so you can answer it, and whomever feels most
comfortable.
    A lot of people are fearful, because of what happened in
Iraq, that there might be some disagreement between the
intelligence agencies, and we have a lot of intelligence
agencies, 17 in all. I do not know how many were involved in
this, whether it was four, or six, or eight. I do not know
whether you can disclose that.
    But my question is: Was there any argument about this fact,
that they agree that there is high confidence that these
weapons were used by the Assad regime? Was there any debate? I
mean, there was debate. Was there any dissension between the
various agencies?
    Secretary Kerry. The intelligence community, represented by
DNI Clapper, has released a public document, unclassified,
available for all to see, in which they make their judgment
with high confidence that the facts are as they have set forth.
So, I think that speaks for itself.
    Senator Boxer. Well, I am going to press just a little bit
harder here, John, Mr. Secretary, if I can.
    Out of all the different agencies, because I remember in
Iraq, sure, eventually the word came down, everyone agreed, but
then we found out there was disagreement.
    To your knowledge, did they all come to the same
conclusion, the various intelligence agencies?
    Secretary Kerry. To my knowledge, I have no knowledge of
any agency that was a dissenter, or anybody who had an
alternative theory. And I do know, I think it is safe to say,
that they had a whole team that ran a scenario to try to test
their theory, to see if there was any possibility they could
come up with an alternative view as to who might have done it.
And the answer is: They could not.
    Senator Boxer. Okay. Last question on intel and Russia. I
read--and I do not know if this is true or false, but I read in
one of the publications today that members of the Russian
parliament were going to come here to lobby our colleagues, to
tell our colleagues, that there is no such intelligence, that
there is no proof. I, myself, met with the Russian Ambassador
several times on this matter, and I knew right away, a long
time ago, they were going to do nothing to help us.
    But what are they clinging to here? How could they make
that case given what you have said?
    Secretary Kerry. I, honestly, I do not know. I mean, there
is no way for me to hang my hat on what it is. I think that--I
have had personal conversations with the foreign minister. They
make an argument to some effect that we do not have evidence,
and that the opposition did it. No matter what you show, that
is the argument they take. Now, as to why they do that or what
the rationale is, I am not going to speculate.
    The President, as you know, is leaving this evening to go
to St. Petersburg for the summit. He will have ample
opportunity to hear firsthand from President Putin, and I am
confident they will have a discussion about it.
    Senator Boxer. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Secretary Kerry. Could I just say? I want to add, though. I
think it is important for us not to get into an unnecessary
struggle over some of this with the Russians for a lot of
reasons.
    The Russians are working with us and cooperating on this
effort to try to make a negotiated process work. And I think
they are serious about trying to find the way forward with
that, number one.
    Number two, on major issues like START, North Korea, Iran,
the Russians are cooperating. So I think, you know, we have to
sort of deal with this thoughtfully, and let us hope that the
summit might produce some change of heart as the President
makes the evidence available to President Putin.
    Senator Boxer. Thank you.
    The Chairman. Senator.
    Senator Risch. Mr. Chairman, first of all, let me say that
I have seen the pictures of what happened, and I have been
seeing pictures for 14 months or more; 2 years, I guess, of
what is going on over there. You cannot have an ounce of
compassion in you and not be moved tremendously by what is
happening there. It is awful. It is horrendous.
    There has been almost 100,000 people killed there, and we
all know, I guess, in an unclassified setting, we can say that
these people have used gas on multiple occasions, but the
deaths have only been in the hundreds and not in the thousands.
But all of this is moving, and there is no question about it.
    Nonetheless, I am reluctant. If this was one American, if
this was an attack against any American, against any American
interest, this would be a no-brainer for me. But I am reluctant
at this point, and part of it stems from where this is going to
go as to the limit we are going to put on it.
    Secretary Kerry, you said you have met with your
counterpart from Russia. First of all, you say they are
cooperating with us on all major issues. I view this as a major
issue, and I do not view them as cooperating with us. They are
printing their currency. They are providing them with
information. They are providing them with technology. They have
provided them with a tremendous amount of military power.
    And so, the question I have is: What is your counterpart
telling you as to what they are going to do when, and if,
America pulls the trigger?
    Secretary Kerry. Senator, look, I understand anybody's
reluctance about this. But again, I would ask you to confront
the greater reality of what happens if we do not do something.
I mean, if you think it is bad today what they are doing, just
think about what happens if they confirm their suspicion that
the United States is not going to do anything.
    One of the reasons Assad has been using these materials is
because they have, up until now, made the calculation that the
West--writ large, and the United States particularly--are not
going to do anything about it. Impunity is already working to
kill a lot of people, and to make things more dangerous, and I
guarantee you that is in their assessment.
    So if we make it worse by not being willing to do
something, those terrible images you see are going to be worse.
But worse than that, our interests will be setback: Israel will
be at greater risk. Jordan will be at greater risk. The longer
that this conflict goes on, and particularly with Assad's
ability to be able to use chemical weapons, the more you will
see the humanitarian crisis grow.
    We are already the largest contributor, thanks to the
generosity of the American people and the willingness of
Congress to move. We are already the largest contributor to
refugee camps in the borders, and many of you have been to
them. Do you want to see them grow? Do you want to see Jordan,
which is already fragile?
    Senator Risch. Of course, not.
    Secretary Kerry. Many of you have met with the King. You
know King Abdullah's judgment is that he is at-risk because of
what is happening. So I believe the best way to curb that and
reduce the threat is by acting.
    Senator Risch. And I do not disagree with anything you
said, but let us take that, and try to expand on that.
    We need the credibility, there is no question about it, but
are we really going to be giving them credibility? If we go in
with a limited strike, and the day after, or the week after, or
the month after, Assad crawls out of his rat hole and says,
``Look. I stood up to the strongest power on the face of this
earth, and I won. And so, now it is business as usual here.''
    And he may say, ``And by the way, I am not going to use
chemical weapons anymore because I do not like what just
happened, but I am going to continue to use conventional
weapons.'' And we are going to go on with business as usual,
and the refugees are going to continue, and the thousands are
going to be killed. And our allies are going to say, ``What is
the matter with you, United States? You said you would do
something about this. You did a limited strike, but you did not
finish Assad off and the problem is just as bad as it was.''
    What does that do to our credibility? You know, that
concerns me.
    Secretary Kerry. Well, Senator, let me speak to that. It is
a good question.
    First of all, I think General Dempsey will tell you, Assad
may be able to crawl out of the hole and say, ``Look, I
survived.'' But there is no way that with reality, and other
assessments, he is going to be able to say he is better off.
    There is no question that--whatever choices are made by the
President--that Assad, and his military effort, will not be
better off, number one. And the opposition will know that, and
the people in Syria will know that.
    Already today, just with the threat that action may be
taken, defections have gone up, and people in Syria are
reconsidering whether Assad is a long-term bet.
    Moreover, General Dempsey has made it clear, and Secretary
Hagel has made it clear, and the President has made it clear,
that there will be additional support to the opposition, which
is only now in its third month of receiving the overt support--
or about to receive, in fairness, as Senator McCain and others
know--there are things that have not gotten there yet. But that
process is in place and that will increase. So I believe--
    Senator Risch. My time is almost up, Secretary.
    I really want to get a handle on this. I think all of us
feel strongly about this, and I need to be reassured on this.
The other thing that just really troubles me about this is:
What happens if this thing gets away from us? What happens? You
have been on the border between Israel and Lebanon, as I have.
And since the last war, I mean they have, Hezbollah has really
beefed that up.
    What happens if they get into it with Israel? What is our
response to that going to be?
    Secretary Kerry. Well, I talked with Prime Minister
Netanyahu just yesterday, and he made it pretty clear to me
that Israel feels very confident about Israel's ability to
deal, as they have previously, with a miscalculation by Assad.
    And the rest of the community--the Turks, the Jordanians,
the Emirates, the Saudis, the Qataris, the United States,
France, others--all have a capacity.
    So as I said in my statement, you all have to make a
calculation here just as Assad does. If he is foolish enough to
respond to the world's enforcement against his criminal
activity, if he does, he will invite something far worse, and I
believe, something absolutely unsustainable for him. Now, that
does not mean the United States of America is going to war. As
I said in my comments, there are plenty of options here.
    Senator Risch. Well, we do know--
    Secretary Kerry. Let me finish; one other comment because
it is important to the earlier question. Russia does not have
an ideological commitment here. This is a geopolitical,
transactional commitment. And our indications are, in many
regards, that that is the way they view it. There may be more
weapons to sell as a result of weapons sold, but it is not
going to elicit some kind of major confrontation. Now, let me
go further.
    They have condemned the use of chemical weapons; the
Russians have. The Iranians have. And as the proof of the use
becomes even clearer in the course of this debate, I think it
is going to be very difficult for Iran or Russia to decide
against all of that evidence that there is something worth
defending here.
    So this is the kind of calculation you have to make, but I
would measure that against the calculation of what happens if
we do not respond. If we do not respond, we are going to be
back here asking you to respond to some greater confrontation
with greater potential for damage and danger because somebody
miscalculated as a result of believing the United States is not
good for what it says. And that will invite much greater danger
to the American people, much greater risk for our armed forces,
and conceivably, much greater chances of a genuine kind of
conflagration that we do not want to see.
    Senator Risch. Thank you, Mr. Chairman. My time is up.
Thank you, Secretary.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, let me thank all of you for being
here, but also thank you very much for your service. And Mr.
Chairman and Senator Corker, I thank you very much for
arranging this hearing.
    It is very clear, the type of conduct that President Assad
has done in Syria, his actions have created a humanitarian
crisis, and now he has escalated to the use of chemical
weapons. The evidence has been presented, and it is clear that
we have to respond, and a military response is justified. So I
support your efforts.
    And, Mr. Secretary, the way that you have described it is
what I think we need to do. We have to have a tailored mission
that deals with degrading and deterring the use of chemical
weapons. We need to have it focused on that mission. It has got
to be done in a way that protects civilians the best that we
can. And it has got to be of very limited duration.
    But I just want to come back to the point that the Chairman
raised and your own comments, where you say we should shut that
door as tightly as possible when dealing with putting our
troops on the ground in Syria.
    I have read the resolution that you presented to us. I
think it is broader than what you have stated as the
President's intentions on the mission, and I understand that.
And I understand the President's strong desire to keep the
mission very tight. And it certainly does not close the door on
the introduction of ground troops.
    I have also heard your comments about the unexpected,
something could happen. I would just point out that the
President, as Commander-in-Chief, has the authority, the
inherent authority, to act in urgent situations where time
requires that action. And I would suggest that as you have come
to Congress for this authorization, if circumstances change and
there is time to come to Congress, you will have the
opportunity to come back to Congress and seek our
participation. We are a separate branch of government, as you
recall.
    So I just want to urge you in the strongest possible terms
to work with our leadership to draft a resolution that is as
tight as we can make it to allow you to carry out the mission
that you have defined here today. So that we can go back and
tell the American people that we, in Congress, are supporting
your action, but are not leaving open the door for the
introduction of American troops into Syria.
    I want to talk a little bit about the specific military
operations, and I am going to leave most of this for tomorrow
in our discussions. Have you put into that equation the fact
that obviously Syria is aware that we are contemplating
military action and therefore may try to change the equation
during this period of time to make it more difficult for us to
carry out that mission? Has that been brought into your
planning stages?
    General Dempsey. Yes, Senator, it has. And time works both
ways. You recall about a week and a half ago there was a
significant leak of military planning that caused the regime to
react. So, time works both ways. We have some pretty
significant intelligence capabilities, and we continue to
refine our targets.
    Senator Cardin. Both of you have indicated your concern
about American military involvement in Syria, that it could
draw us into an internal conflict. Are you also putting into
your plans ways to prevent America being drawn into the
internal conflict in Syria?
    Secretary Hagel. Senator, we are. As I noted in my opening
statement, we have taken great care and much time in looking at
all of not only the options to present to the President but the
contingencies that may be a consequence of the President
selecting one of those options, including what you have just
noted. It is imperfect, as I said, and I think everyone
recognizes there is always risk. We have tried to minimize that
risk in every way we can in every presentation we have made to
the President. The President has insisted on that, minimal
collateral damage across the board.
    So, yes, we have taken a lot of time to focus exactly on
your point.
    Senator Cardin. Secretary Kerry, you point out that if we
don't act, we are liable to lose some friends. And I want to
point out that we have a direct interest here. We not only have
humanitarian reasons to respond to the use of chemical weapons,
we have a direct American interest in that region, and we have
Americans that are in that region that are at risk if
additional chemicals are used. So, I see a direct connection to
U.S. interests.
    You say we might lose some friends if we don't act. Why
don't we have more participation in the U.S. military response
in addition to just support? It seems to me that America will
be in the lead, but it does not seem like we have a growing
list of countries that are actively joining us in the military
operation.
    Secretary Kerry. Well, first of all, there is no definitive
list at this point in time because the President has not made
the decision as to specifically which set of choices he is
going to operate on.
    Secondly, as many countries as we could conceivably need to
be able to be helpful in a limited operation have volunteered
to be helpful, and they stand ready to take part in any
specific operation, and we are very comfortable with that.
    But the bottom line in many ways remains that we are
talking about very specific kinds of capacities that in some
cases only the United States of America possesses. And so that
remains open. It is a process that will evolve as this debate
evolves and as the President makes his decisions and the Joint
Chiefs of Staff and the military present him with the various
options, and those will probably evolve as you mentioned.
People may make adjustments in Syria, and I can assure the
Syrians that General Dempsey and his people are making
adjustments as they go along.
    Senator Cardin. Well, I would hope we would have stronger
international participation. Is there a consideration of a role
for NATO to play here, considering that one of NATO's partners,
Turkey, is on the direct front line? Is that being considered?
    Secretary Kerry. Well, as you say, is it being considered,
everything is being considered, and all of these things are
being evaluated. Discussions are taking place. I will be
meeting on Saturday in Vilnius with the European ministers. I
know this topic will come up, and most of them, they are all
members of NATO, or most of them are, not all of them. So we
will have some discussions when we are there.
    But at the moment, this is a limited operation with the
scope of support that the President makes a judgment that we
ought to have. We will have very broad--we have already very
broad--we have had some 53 nations or countries and
organizations acknowledge that chemical weapons were used here
and have condemned it publicly. Thirty-one nations have stated
publicly that the Assad regime is responsible, and I think we
are at about 34 countries have indicated that if the
allegations are true, that they would support some form of
action against Syria.
    So there is a very broad coalition that is growing of
people who believe we ought to take action against Syria, but
the question is whether or not it makes sense. For whatever
number to be part of it is a decision that our military and the
President have to make as we go along here.
    Senator Cardin. I will reserve the rest of the questions
for the closed session. Thank you.
    The Chairman. Senator Rubio?
    [Audience Disruption.]
    The Chairman. The gentleman will sit down or I will have
the officer remove you.
    The police will make sure that the committee is in order.
    Senator Rubio?
    Senator Rubio. Thank you, Mr. Chairman.
    Let me begin by answering a fundamental question that I get
asked a lot as we discuss this very important issue, and that
is why we even care about what is happening in Syria. I want to
make very clear my belief that I think reflects the belief of
most of the members of this committee, and that is that what
happens in Syria is a vital national interest to the United
States and to our national security for reasons that have
already been outlined.
    The Syrian relationship with Iran is very significant. It
is a key part of their ambitions to be the regional power, the
dominant regional power. In fact, the Iranians love to brag
that Syria gives them a border with Israel.
    Number two, Assad is an anti-American supporter of
terrorism. He is a supporter of Hamas. He is a supporter of
Hezbollah. And, by the way, he is a supporter of Al Qaeda in
Iraq, the same Al Qaeda in Iraq that is responsible for the
death and maiming of countless brave young men and women who
served our country in uniform.
    It is also of interest to us because of the instability
that this is creating in Syria, instability that is allowing
portions of Syria to quickly become kind of what Afghanistan
was before 9/11, the premier operational space for global
jihadists from abroad to come train and fight and plan attacks
in the future. And now, added to that is this chemical attack,
which undermines the post-World War II world order which
basically said that these things are unacceptable.
    And allies that look at the United States and our
capabilities of living up to our security promises are all at
risk now as a result of all of this.
    This is why Syria and what is happening in Syria matters to
our national interest, why it is so clearly tied to a critical
national security interest to the United States.
    By the way, most, if not all of this was true two years ago
when I joined other voices on this committee and in the Senate
and beyond that advocated that at that time, when Assad was on
the ropes, that the United States should engage in trying to
identify moderate elements and equip them so that they became
the predominant rebel force in Syria and not others.
    But that didn't happen. Instead, the choice was made to
lead from behind. The choice was made to watch as this thing
unfolded. Others advocated that we should just mind our own
business, and what we are seeing here now is proof and an
example that when America ignores these problems, these
problems don't ignore us, that we can ignore them, but
eventually they grow and they come to visit us at our doorstep,
and now we are faced with what we have.
    In fact, Secretary Kerry, a moment ago you said that one of
the calculations that Assad used in deciding to use chemical
weapons was that the U.S. wouldn't do anything about it. I
understand perhaps why he made that calculation because, yes,
this was a horrible incident where a thousand people died, but
before this incident 100,000 people had died, snipers were used
to pick off civilians, women were raped--they were going to
these villages and carrying this out, and nothing happened. So,
of course he reached that calculation.
    So this is a reminder of what happens when we ignore the
world, when we look inward sometimes and we ignore these
problems. They only get worse and more difficult to solve, and
that is the mess that we have here right now. We are left with
options, all of which are less than ideal, and I want to walk
through the three that have been presented to us by different
voices and then ask specifically about the one the President is
considering.
    The first option is to decide to help Syrians remove Assad
and replace him with a more moderate government. I think that
is the ideal outcome, but it has its own complications. Today,
the rebel forces on the ground are not just the moderate
rebels. There are non-moderate rebels. There are jihadists that
now control major portions of the country, and other parts of
the country are intermingled with these rebel forces, creating
a real prospect that after the fall of Assad a new civil war
could be triggered, one that could involve sectarian violence,
massacres of minorities, et cetera. So this comes with its own
set of complications.
    The other, which some voices have advocated, is doing
nothing, but that would guarantee the following outcome, an
emboldened Assad, an emboldened Iran, increased instability in
the country because portions of that country will still be
ungoverned, and it will also send a message to the world that
there is no red line that they should fear crossing. So Iran
will move forward toward nuclear weapons. North Korea can act
crazier, if that is even possible. Our allies in South Korea
and Japan may start to doubt their security arrangements with
us. Israel may decide it needs to strike Iran unilaterally.
Iran will move toward the bomb, which, by the way, won't just
be an Iranian bomb. It will be a Turkish bomb as well, and a
Saudi bomb, and maybe even an Egyptian bomb one day.
    The third is the action the President is asking us to
consider, what he termed--not me--what he called a shot across
the bow, a military strike of limited duration and scope that
has three goals, as I understand it, that have been outlined
here today.
    Goal number one is to hold Assad accountable. Goal number
two is to deter this behavior in the future. And goal number
three is to degrade Assad's capacity to carry out these attacks
in the future. This is what the President wants us to
authorize, a limited strike that would accomplish these three
things.
    The questions that I have, quite frankly, I am a bit
skeptical that what the President is asking for will provide
the support needed to achieve these objectives, and that these
objectives are even realistic at this point.
    So, here is my first question. I think I will ask this of
General Dempsey. The calculation that Assad has made is that
the reason why he is using these chemical weapons is because he
is afraid that if he doesn't, he could lose this war, be
overthrown and killed. That is the calculation that he has
made. That is why he used these chemical weapons. He wants to
beat the rebels.
    Can we structure an attack that tips that calculation where
he will basically decide that he would rather risk being
overrun by rebels than risk a limited attack from the U.S. if
he uses these chemical weapons? He has to decide, I will use
chemical weapons and take on a limited U.S. attack in the
future, or I will risk being overrun by the rebels.
    How are we going to unbalance that and lead him to
calculate that he is better off risking losing to the rebels?
    General Dempsey. Well, Senator, I think it may be even more
insidious than that. He has reached a point where he now thinks
of chemical weapons as just another weapon in his arsenal, and
that is the part that makes this so very dangerous. And I think
that as I have provided advice on what targets may be
appropriate, I certainly want to degrade his capabilities
coming out of this. I want to come out of it stronger than we
go into it.
    Senator Rubio. That leads me to my second question. How
confident are you, and how confident can you express to this
committee that you are, that we can in fact put in place a
military plan that is limited in scope and duration that can
effectively degrade Assad's capability to carry out future
chemical attacks?
    General Dempsey. I am confident in the capabilities we can
bring to bear to deter and degrade, and it won't surprise you
to know that we will have not only an initial target set but
subsequent target sets should they become necessary.
    Senator Rubio. And this question is probably for Secretary
Kerry, and I think this was asked earlier but I think it is
important to elaborate on it. One of the concerns that I have,
and I have heard others express, is that Assad could take
three, five, six days of strikes, maybe longer, maybe shorter,
and emerge from that saying I have faced down the United States
and I have held onto power and survived, and at that point be
further emboldened both domestically and perhaps even abroad.
    Have we taken that into account? I understand your argument
that inaction would be worse, but have we taken into account
what the implications could be of an Assad that could weather a
limited strike and what that could mean for the long-term
prospects of the conflict?
    Secretary Kerry. Yes, we absolutely have. For certain, we
have taken that into account. He will weather. I mean, he will
weather. The President is asking for a limited authority to
degrade his current capacity and to deter him from using it
again. He is not asking for permission from the Congress to go
destroy the entire regime or to do a much more extensive kind
of thing. That is not what he is asking.
    So he will be able to stand up, and no doubt he will try to
claim that somehow this is something positive for him. But I
think General Dempsey has made it clear, and I think we believe
deeply, as do others who are knowledgeable about this in the
region, that there is no way that it will, in fact, be
beneficial for him, that it will not translate for him on the
ground, that the defections that are taking place now and other
things that will happen will further degrade his capacity to
prosecute going forward.
    And I want to emphasize something. I want to come back to
it because I don't want anybody misinterpreting this from
earlier. This authorization does not contemplate and should not
have any allowance for any troops on the ground. I just want to
make that absolutely clear. What I was doing was hypothesizing
about a potential that might occur at some point in time but
not in this authorization, in no way. Let me be crystal clear,
there is no problem in our having the language that has zero
capacity for American troops on the ground within the
authorization the President is asking for. I don't want anybody
in the media or elsewhere to misinterpret that coming out of
here, as I said earlier. I repeat it again now. That is
important.
    The Chairman. Thank you. And I can assure you, that will be
in the resolution.
    Secretary Kerry. Good.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony. I agree that we
should not turn our back on such a blatant violation of
international norms with respect to the use of chemical
weapons, and that if we stand quietly by while a tyrant like
Assad uses chemical weapons on his own people, that we will be
giving carte blanche to any dictator anywhere in the world to
develop and use chemical weapons.
    I think the question now, as we have all said, is how we
respond specifically. How do we best send a message that it is
completely unacceptable to develop, much less use, these types
of weapons, and how do we do that without inadvertently
spreading the conflict beyond the borders of Syria? That is
really the question that we have today.
    We have heard that we want to deter the future use of
chemical weapons, but according to the President and from your
testimony today, we don't want to tip the scales on the ground.
So how do we ensure that we can do that without spreading the
conflict throughout the region, and how do we hit Assad hard
enough so that we deter his future use of chemical weapons and
yet don't affect the military outcome on the ground?
    Secretary Kerry. General, do you want to address just the
military piece, and I will take the other piece?
    General Dempsey. Sure. I think the language about not using
American military power to tip the scale would be our direct
action. In other words, this resolution is not asking for
permission for the President to be able to use the United
States Armed Forces to overthrow the regime.
    On the other hand, back to the earlier questions about
developing a moderate regime that has capabilities to be a
stabilizing force inside of Syria, that is the path. Our
military action in this case is very focused on the chemical
weapons but will have the added benefit of degrading, and it
will also have the added benefit of supporting the diplomatic
track.
    And with that, let me turn it over to the secretary.
    Secretary Kerry. Senator Shaheen, the President has made it
very, very clear that the policy of this administration--and
sometimes people have said, have questioned precisely what it
is, and I will tell you precisely what it is. The President is
asking for the Congress to take steps that will specifically
deter and degrade Assad's capacity to use chemical weapons. He
is not asking the Congress for authorization to become whole-
hog involved in Syria's civil war to try to change the regime
through military action. This is a targeted action to deal with
the problem of chemical weapons.
    But, there is a separate track which the President has
already committed the administration and the country to, which
is that Assad must go, that he has lost all moral authority or
capacity to ever govern Syria, and he is pursuing that, the
President is pursuing that track by helping the opposition, by
now having made the decision to lethally arm that opposition by
upgrading the efforts of the opposition to be able to fight the
fight, not the United States, the opposition, and to be able to
come to a negotiated settlement because the President is
convinced, as I think everybody is, that there is no military
solution, that ultimately you want to get to Geneva, you want a
negotiated settlement, and under the terms of Geneva One, there
is an agreement which the Russians have signed on to which
calls for a transition government to be created with the mutual
consent of the current regime and the opposition, and that
transition government will establish the rules of the road for
the Syrian people to choose their new government.
    There is no way possible that by mutual consent Assad is
going to be part of that future. The Russians have agreed that
that is, in fact, Geneva One, and the purpose of the Geneva Two
meeting is to implement Geneva One.
    Now, it is complicated, obviously. How do you get there?
And that is part of this struggle. But the President is
convinced that as the support to the opposition increases,
there is a much greater likelihood that you will wind up
ultimately with a negotiated settlement.
    The alternative is that you stand back and do nothing and
Syria, in fact, implodes, becomes an enclave state. There are
huge ungoverned spaces. Al Nusra, Al Qaeda, Hezbollah, others
become more of a threat to our friends in the region, and the
region becomes much more of a sectarian conflagration.
    Senator Shaheen. Thank you, Mr. Secretary.
    Secretary Hagel and General Dempsey, you made a number of
statements throughout the spring cautioning against
intervention in the conflict in Syria. Why do you feel at this
point that it is appropriate for us to take action? What has
changed?
    Secretary Hagel. Senator, thank you. I will let General
Dempsey respond for himself.
    Well, first, very clear intelligence and evidence that the
Assad regime used chemical weapons on its own people. So, we
are dealing with a new set of realities based on facts. And I
think it is at least my opinion that that needs to be
addressed, that needs to be dealt with for the reasons I have
noted, I have said in public and also addressed in my
statement, and I think what Secretary Kerry and General Dempsey
have said, and obviously what the President has said. So that
is the most specific reason. The dynamics have changed.
    One additional point in regard to your question on this as
to your previous question. If, in fact, the President is given
the authorization from Congress to go forward, and as he has
already said, he believes he has within his constitutional
power as commander-in-chief to act as well, and he has given
his reasons, which we all support, why he came to the Congress,
there are parallel actions that would work along with whatever
action the President would take, which Secretary Kerry has
noted: Opposition strength, defections within the Syrian
government and military, and other consequences.
    And this is about getting to an end game. That end game is
a diplomatic settlement. It is driving this toward what the
President believes is the only way out of this, if for no other
reason than what Secretary Kerry has noted: We do not want to
see the country of Syria disintegrate and result in ungoverned
space because the consequences would be devastating for our
partners, for our allies, and for the entire Middle East. At
that point we would all have to respond in some way.
    So I would just add that onto answering your last question.
    General Dempsey. Chairman, may I? I will make it brief.
    The Chairman. Yes, sir.
    General Dempsey. But in response to your question about,
let's say, the past year, over the past year we have provided a
full range of options, and my advice on those options was based
on my assessment of their linkage to our national security
interests and whether they would be effective. On this issue--
that is, the use of chemical weapons--I find a clear linkage to
our national security interests, and we will find a way to make
our use of force effective.
    Senator Shaheen. Thank you all.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I am trying to reconcile the two tracks of goals we have
here: military action and a negotiated settlement. Secretary
Hagel, you said we are not seeking to resolve the underlying
conflict in Syria. Isn't that exactly what we're trying to do?
Why aren't we trying to resolve that?
    Secretary Hagel. I was referring in my statement to the
authorization to use military force. That specifically is not
why we have come to the Congress, why the President asked for
the Congress' support. As he has said, the authorization is for
a very specific and focused military action.
    Senator Johnson. But our stated goal really is to remove
Assad and move toward a negotiated settlement. Why wouldn't we
use this opportunity, the military action, to move toward that
goal?
    Secretary Hagel. Well, that is one option, if those options
would range from an invasion or a lot of military options on
the table. The President has said that this resolution is about
a limited authorization for a limited exercise. The goal of
removing Assad from office, as the President has stated, is
still the policy of this administration.
    Senator Johnson. General Dempsey, how confident are you
that you can calibrate, tailor, and fine-tune military action
that doesn't have spillover effects so that we keep it to the
limited stated goal of degrading and deterring?
    General Dempsey. Well, the task was to do just that, to
deter and degrade, and to be limited in focus and scope and
duration. I mean, that is the task I've been given and the task
I have---
    Senator Johnson. Yes, but how can you calibrate that?
    General Dempsey. Well, we can calibrate it on our side.
There is always the risk of escalation on the other, but they
have significantly limited capabilities to do so, and most of
the intelligence informs us--we could talk about that in a
closed session.
    Senator Johnson. What planning is being undertaken right
now in case this does spin out of control? We were talking
about the potential for boots on the ground.
    Secretary Kerry, I am very glad to hear you are bringing
into the equation what I think is our number one national
security interest, and that is those chemical weapons falling
into the hands of Al Qaeda elements or possibly even Hezbollah.
What commitment do we have long term to make sure that doesn't
happen? If you have a very limited resolution here, how do we
know that we will prevent that from happening?
    Secretary Kerry. Senator Johnson, this is this moment in
time, and as the President said, he is asking for a limited
military response, recognizing that neither he nor most of
America want to be dragged into a civil war in Syria.
    Senator Johnson. But our goal is to get rid of Assad.
    Secretary Kerry. Our goal is to help the opposition. You
have to look overall. The President--and I think all of us
agree--I mean, can you imagine Assad running Syria? Can you
imagine this man who has gassed his people remaining in power.
    Senator Johnson. Again, I am trying to reconcile why, if we
are going to go in there militarily, if we're going to strike,
why wouldn't we try to do some kind of knockout punch? Is it
because we simply have no faith that there is anybody on the
ground, the rebels, to take--
    Secretary Kerry. No. No, absolutely not.
    Senator Johnson. Or is it not ready for regime change? Is
that the problem?
    Secretary Kerry. No, Senator, that is not the reason. The
reason is that the President is listening to the American
people and has made a policy decision, and in addition, that is
not something that the United States of America needs to engage
in or ought to engage in. That is a much broader operation.
    Senator Johnson. But it is a stated goal.
    Secretary Kerry. Well, yes, it is. It is, Senator. Is the
Congress of the United States ready to pay for 30 days of
30,000 airstrikes, and is there a legal justification for doing
that? You could run through a whole series of different
questions here that are very serious about what you are talking
about.
    Senator Johnson. What do we know about the opposition? Have
we been tracking them for the last two years? I mean, it seems
like--and this is more of an impression I have as opposed to
any exact knowledge--initially the opposition was maybe more
Western leaning, more moderate, more democratic, and as time
has gone by, it has degraded and become more infiltrated by Al
Qaeda. Is that basically true, or to what extent has that
happened?
    Secretary Kerry. No. That is actually basically not true.
It is basically incorrect. The opposition has increasingly
become more defined by its moderation, more defined by the
breadth of its membership, and more defined by its adherence to
a democratic process and to an all-inclusive, minority-
protecting constitution which will be broad-based and secular
with respect to the future of Syria. That is very critical.
    Senator Johnson. Secretary Hagel, do you--
    Secretary Kerry. Let me just finish one other point about
the opposition. It is my understanding, because I talked to the
president of the opposition yesterday, he is in Germany now. He
is meeting with the German Parliament. He is coming to Great
Britain. He will be meeting with Parliament in Great Britain.
He is prepared to come here as soon as those meetings are over
in order to meet with you, and you can have an opportunity to
talk to President Jarber and meet with the opposition, have a
much better sense of who they are.
    Senator Johnson. We appreciate that. Secretary Hagel, do
you have a feel for the number of members of the opposition?
How large is their force?
    Secretary Hagel. I don't know the numbers. Our intelligence
communities have estimates of those numbers. But I think, as
Secretary Kerry said, the momentum has shifted in the opinion
of our intelligence community and others who are close to the
situation.
    Senator Johnson. I'm kind of a numbers guy. General
Dempsey, do you know the force strength of the rebel forces?
    General Dempsey. I don't have them committed to memory,
Senator.
    Senator Johnson. But we have them. I can give--
    General Dempsey. Yeah, the intelligence community has that
available. We'll make it available tomorrow.
    Senator Johnson. Do you also have a pretty good feel for
how many really would be considered moderate versus the
elements of Al Qaeda?
    General Dempsey. I have seen documents that lay that out.
    Senator Johnson. How do we know that Hezbollah--because
they've been so cooperative with the Assad regime--doesn't
already have access to chemical weapons? Do we have any feel
for that at all?
    Secretary Kerry. I think we need to talk about that in our
classified session. But let me just say to you that in terms of
the opposition numbers, you see ranges up to 80-90,000, 100,000
in total opposition. You see ranges from--well, I don't want to
go into all the numbers, but in the tens of thousands in terms
of operative, active combatants. I've seen some recent data on
the numbers of the extremists now this or there actually lower
than former expectations.
    I would also say to you, Syria historically has been
secular. And the vast majority of Syrians, I believe, want to
remain secular. It's our judgment that, and the judgment of our
good friends who actually know a lot of this in many ways
better than we do because it's their region, their
neighborhood. I'm talking about the Saudis, the Emiratis, the
Qataris, the Turks, and the Jordanians. They all believe that
if you could have a fairly rapid transition, the secular
component of Syria will reemerge and you will isolate--
    Senator Johnson. Very good. That tends to argue for a more
robust response.
    Final question: You said this is the world's red line; I
agree. So in the intervening time period before we potentially
act here, how many additional countries will be supportive of
this action? What support do we have right now, and what is
your goal?
    Secretary Kerry. Well, our goal is to have as broad a
coalition and support of what we might do as is possible. We're
on working that right now. But the military and the President
are going to have to decide how many they actually want to have
take part in the action. As I said, we already have more
partners ready to do something kinetic than the military feels,
under this particular operation, we need to effect that.
    Now, obviously, we want them to participate because we want
it to be a broad coalition. But the final numbers will have to
be decided by the President and by the specific operation that
he defines, together with you in the authorization.
    Senator Johnson. I look forward to tomorrow's briefing;
thanks.
    Secretary Kerry. Thank you, Senator.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Menendez. I'd like to
thank Secretaries Kerry and Hagel and Chairman Dempsey for your
service to our nation and for your testimony in front of us
today. I think the authorization of the use of force, I think
the commitment of Americans' military strength is one of the
most important issues that we will ever debate in this
Congress, and I'm grateful for the opportunity to have this
conversation today.
    As Secretary Kerry said in his opening testimony, not just
what we decide, but how we decide it will send a very important
message around the world that this Congress can still function
in a nonpartisan way in the interest of the people of the
United States.
    As I've listened to Delawareans in recent days, I think
they reflect a nation that is weary of war and that is weary of
inadvertently repeating some of the challenges of our
engagement in Iraq. I have heard specific and pointed concerns
that we not rush into action based on uneven or inaccurate
intelligence, that we not be drawn into a civil war we don't
fully understand or where we can't quite discern the good guys
from the bad guys, and, more than anything, that we not commit
to an open-ended participation, a direct military invasion and
an occupation of a country and a part of the world that is
often confounding and is full of competing priorities.
    Having reviewed the intelligence this morning in a
classified briefing, having participated in a number of
briefings from you and folks leading in your agencies and
departments, I am persuaded that this is not that circumstance,
that the intelligence is solid, that we have in this instance a
clear violation of a longstanding global red line against the
use of chemical weapons, as you've stated, something embedded
in America's statutes and in our treaty commitments, something
that is a truly global standard.
    My view, as I've watched both the images on TV that were
presented at the beginning of this hearing, and as I've spoken
to family and friends and neighbors at home, is that we face a
real risk here if we do not act, that this is an instance where
one of the world's worst dictators has steadily ratcheted up an
ascending crescendo of death in his own nation.
    He began with thugs, police, and the military taking on
peaceful demonstrators; graduated to snipers killing innocent
civilians; has used helicopters and jet fighters against his
own people; has deployed cluster bombs and Scud missiles. I
think over the last 2 years, there is no doubt that Bashar al-
Assad and his regime is willing to go to any lengths to stay in
power.
    So the challenge now, for those of us who seek an
appropriate path forward, is to make sure that we craft an
authorization for the use of military force that responds to
Americans' legitimate concerns, but still allows the
administration to act in a decisive and timely way to both
deter and punish the Assad regime for what they've done.
    So I have a few questions for you, if I might, first to
General Dempsey. And I know we've spoken to this before, but I
think it is worth repeating.
    How do we strike the right balance between military action
that is too insignificant to actually effectively deter or
degrade Assad's capabilities and one that is so decisive and
overwhelming that it reaches beyond the scope of an
authorization and becomes actually a regime-change effort?
    General Dempsey. Well, Senator, I'll assure you I won't
recommend an option or a set of targets that won't effectively
deter and degrade. That's the task I've been given. And that
now we'll continue to refine that, not just based on
intelligence, but based on the resolution that comes out of
this committee.
    Senator Coons. And could you, in your view, accomplish that
mission with an authorization that is limited in scope in terms
of duration and scope, as has been discussed with Secretary
Kerry, in terms of not introducing U.S. troops on the ground?
    General Dempsey. Well, it won't surprise you to know that,
as the military leader responsible for this, the broader the
resolution, the less limiting, the better off I will be in
crafting a set of options. But I completely defer to the
Secretary of State to give me what I need to do that.
    Senator Coons. Well, if I might, then, to Secretary Kerry,
because our goal here is to not pass or even consider an
authorization that is so narrow that it prevents any effective
message to be sent here, as you said, I think in a compelling
way, in your opening statement.
    Our actions here are not just meant to deter Assad, but to
send a strong message to Pyongyang, to Tehran, to non-state
actors around the world who might use chemical weapons or might
seek nuclear weapons. How do we craft an authorization? How do
we take actions that are effective here in deterring other
countries that are watching our decisiveness and our action in
this instance?
    Secretary Kerry. Well, I think the language that the
administration submitted with respect to the military action
necessary to degrade and deter and prevent the use of chemical
weapons, specifically, is very targeted.
    But, as I've said several times now, and will repeat again,
I know the administration has zero intention of putting troops
on the ground. And within the confines of this authorization
I'm confident we'd have zero problems including some kind of
prohibition if that makes you comfortable.
    I would not urge an excessively pinpointed, congressionally
mandated, set of targets. And I think in the course of the
classified briefings, the intelligence community and the
military community will make it very clear to you why that's
not advisable. The general needs some latitude here to be able
to make sure he can accomplish his task.
    But I think the broad confines and constraints of this
particular operation are not hard for us to arrive at in
agreement. I'm confident we'll do it very quickly.
    Senator Coons. Thank you. One of my other concerns, Mr.
Secretary, is the flood of refugees and their impact on the
region. In a visit in January to a Syrian refugee camp in
Jordan, I was moved both by the humanitarian situation they're
facing and by the very real impact that this is having on our
regional allies, on Jordan, on Turkey, the destabilizing impact
on Lebanon, and of course, the real impact it's potentially
going to have on our close ally, Israel.
    I was encouraged to hear there was a successful missile
defense system test earlier today. Secretary Hagel, what steps
are we taking to ensure that our allies in this immediate area,
Turkey and Jordan and Israel, are able to defend themselves
from a potential response by the Assad regime?
    Secretary Hagel. Well, Senator, first, Jordan, you know we
have Patriot missile defense batteries in Jordan. And we also
are working very closely with the Israelis. You know they have
a very sophisticated Iron Dome and aerial system, missile
defense system. We are in constant coordination with all the
allies in the region. And as you may know, General Dempsey was
just in Jordan for a commanders' meeting, which included all
the senior military from the neighboring countries and our
partners. So, we are closely connected with and assisting our
allies on this and other issues.
    Senator Coons. Thank you. Last question, Secretary Kerry,
if I might. I am interested in our having a follow-on
conversation about how this specific strike and this specific
authorization that you're seeking can also lead to a broader
strategy, a strategy for support engagement with the opposition
that will lead to the diplomatic resolution of the Syrian civil
war that you've spoken about repeatedly.
     I don't think these are mutually exclusive. I do think
it's possible for us to take action that reinforces a global
red line against chemical weapons use, but to still continue to
strengthen and broaden our engagement with the opposition in a
way that moves toward a post-Assad Syria that is sustainable
and secure. And I'd look forward to your input with us in our
next hearing on that topic.
    Secretary Kerry. Absolutely, Senator. I look forward to it,
too. What I'd like to do is get the whole committee, maybe, to
come down to the department and we could, you know, have this
discussion in that confine as a committee also. And I think
that might be helpful, in addition to what we do in the
classified briefing tomorrow.
    Senator Coons. Thank you.
    Secretary Kerry. Mr. Chairman, if that--if you want to do
that, I'm happy to do that follow-up.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman, and thank you all
for your testimony. And I want to thank you, particularly the
State Department, for making information available with regard
to unclassifying certain information. And also for the
classified hearings that have taken place with regard to the
chemical attack. I think that one would have to suspend
disbelief, as you mentioned, to assume that the regime was not
in charge of this.
    Secretary Kerry, in your initial testimony, you asked us to
ask ourselves what Assad's calculation would be if we failed to
act. I think that's an appropriate question. But I think it is
appropriate for us to ask you, or the administration, what is
the calculation of Assad right now, when rather than after we
have proof that he did engage and what he engaged in, that
we're waiting for congressional authorization?
    I think one would have to suspend disbelief to assume that
we wouldn't be better off attacking those targets right now, or
a week ago, than waiting three weeks for Congress to take
action. And just drawing some parallel to the conflict in
Libya, I think the President's statement was, before we went
ahead and engaged in combat there, or at least along with NATO,
the President said, ``I refuse to wait for the images of
slaughter and mass graves to take action'' and did so without
congressional authorization under the War Powers Resolution.
And we had some dispute when he came back. But initially, we
went ahead.
    Here, we have evidence that chemical weapons were used. And
how can we assure or tell our constituents that this isn't
political, when we come, when you come, when the administration
comes to the Congress to ask for authorization to take action
that the President clearly has said he has authority to take?
    Secretary Kerry. Well, Senator Flake, it's somewhat
surprising to me that a member of Congress, particularly one of
the Foreign Relations Committee, is going to question the
President fulfilling the vision of the founding fathers when
they wrote the Constitution and divided power in foreign policy
to have the President come here and honor the original intent
of the founding fathers in ways that do not do anything to
detract from the mission itself.
    Now, General Dempsey will tell you that he advised the
President of the United States that not only was there not a
deterioration in this mission by waiting; there might even be
some advantages. And so, in fact, we're not losing anything by
waiting. And I personally believe there are advantages, because
we have time to work with our friends in the international
community, because we have time to make the case to the
American people and share with them the evidence that we have
shared with you in the last days, because we have an
opportunity to be able to build greater support.
    And as the general has said, we can adjust to any changes
or shifts that they make in that time. This does not in any way
deteriorate the fundamental mission of degrading and deterring
the use of chemical weapons.
    Now, if at any moment Assad were foolish enough to believe
that this period of waiting is somehow an invitation to do more
of his criminal activity, I can assure you that the President
of the United States, and I think you all, would probably speed
up your process and/or the President would respond immediately.
    This is working. There are defections taking place. There's
great uncertainty in Syria. We are building support, a greater
understanding. And I would far rather be playing our hand than
his at this point in time.
    So I don't think we're losing anything. I think the
President made a courageous decision to take the time to build
the strength that makes America stronger by acting in unity
with the United States Congress.
    Senator Flake. Well, if I may, I can certainly understand
if that is a secondary goal or the primary goal that will, in
this intervening time, it causes our allies to get with us. It
causes Russia to put the pressure on maybe the Assad regime to
get back to the table, peace talks, something like that, that's
great. But purely in terms of military strategy, and I don't
have a military background, but I would have to suspend
disbelief, and I think all of us would, to assume that we're
better off in a couple of weeks doing what we're planning to
do, what we will authorize the administration to do.
    General Dempsey, is there evidence that the Assad regime is
right now moving some of the targets that can be moved or
surrounding targets with civilians or others to make it more
difficult to give effect to our strategy?
    General Dempsey. Yeah, thanks, Senator. First, I do want
to--for interest of clarity here, what I actually said to the
President is the following: ``The military resources we have in
place can remain in place. And when you ask us to strike, we
will make those strikes effective.''
    In other sessions in the principals' committee, not with
the President--the President, we talked about some targets
becoming more accessible than they were before. But to your
question, there are, in fact, there is evidence, of course,
that the regime is reacting not only to the delay, but also
they were reacting before that to the very unfortunate leak of
military planning. So this is a very dynamic situation.
    Senator Flake. Secretary Hagel, you seem eager to jump in.
    Secretary Hagel. I was just going to add something that you
added, Senator: And that is the international community. In
addition to what the President has already noted, a nation is
always stronger when it is together, when the President gets
the Congress and the American people with him at the beginning;
but also, we're stronger when many of the members of the
international community are with us on this, I think the
President feels pretty strongly that would be also an important
part of whatever decision he might make.
    And it doesn't end with whatever military option the
President decides to go with, as we have all heard. That's all
the more important; we would want the international community
with us.
    Senator Flake. Secretary Kerry, what will happen if the
Congress says no and does not authorize this strike or this use
of force? What will the President do?
    Secretary Kerry. Well, I can't tell you what the
President's going to do because he hasn't told me. But the
President, as you know, retains the authority, always has the
authority, had the authority to strike before coming to
Congress. And that doesn't change.
    But I'll tell you what will happen, where it matters. In
Pyongyang, in Tehran, in Damascus, folks will stand up and
celebrate. And in a lot of other capitals in parts of the
world, people will scratch their heads and sign a condolence
for the loss of America's willingness to stand up and make
itself felt where it makes a difference to the world.
    I think it would be an enormous setback to America's
capacity and to our vision in the world, and certainly to the
role of leadership that we play.
    The Chairman. Thank you.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman. On Saturday, I was
standing with a group of friends, watching the television
screen with the announcement that any minute the President
would make a statement. And I turned to them and said, ``I'll
bet the missiles were launched and shot off hours ago, and
we'll hear about it now.''
    And to my surprise, of course, the President came forward
and said, ``I have that authority. I've made that decision. But
I'm going to respect our constitutional democracy and give the
Congress--the American people through Congress--a voice in this
decision.''
    From where I was standing, that was good news, because for
as long as I've been in Congress, House and Senate, I've argued
about that congressional responsibility. Some presidents have
respected it; some have not. Most of the time, Congress, in
writing or in speeches, insists on being respected and being
given this authority and then starts shaking when it's given,
because it calls on us to be part of historic life-and-death
decisions.
    It's one of the toughest calls we'll ever make as members
of Congress, but I salute the President for respecting the
Constitution and giving us that responsibility. And I think the
turnout today, on short notice in the midst of a break, on this
committee, Mr. Chairman, and Ranking Member Corker, is an
indication we're taking this seriously and solemnly.
    I'll also note to Senator Kerry and also to Secretary Kerry
and Secretary Hagel, we all served together some 12 years ago
and faced similar awesome, historic decisions related to Iraq
and Afghanistan. We saw those differently in some respects. But
I voted against the Iraqi resolution and going to war in that
country, and felt that the events that transpired afterwards
gave me some justification for my vote.
    But I voted for the war in Afghanistan, believing that it
was a clear response to 9/11. We were going after those
responsible for killing 3,000 innocent Americans. And we were
going to make them pay a price. I still believe that was the
right thing to do.
    But I didn't know at the time that I voted for that
authorization for use of military force I was voting for the
longest war in the history of the United States and an
authority to several presidents to do things that no one ever
could have envisioned at that moment in history.
    So, Secretary Kerry and Secretary Hagel, I take this very
seriously. I understand this President. I understand his
values. But I take it very seriously that the language be as
precise as possible when it comes to this whole question of
expanding this mission into something much larger, something
that would engage us in a new level of warfare or a new
authority for this President or a future president.
    So I hope that we can have your word and assurance that we
can work together in a bipartisan fashion to craft this in a
way that it carefully achieves our goal, but does not expand
authority anywhere beyond what is necessary.
    Secretary Kerry. Senator, thank you. Very important
statement, and you not only have my word that it will not do
that, but we will work with you very, very closely, with the
White House, in shaping this resolution. There's no hidden
agenda. There's no subterfuge. There's no surrogate strategy
here. There's one objective, and that objective is to make sure
we live up to our obligations of upholding the norm with
respect to international behavior on the use of chemical
weapons, and that is what the President is seeking in this
authorization.
    Senator Durbin. Let me speak to the issue of chemical
weapons. I don't know if General Dempsey or Secretary Hagel or
perhaps Secretary Kerry is the appropriate person, but the
French have done an assessment of what they believe the Syrians
have in terms of their chemical weapons arsenal.
    General Dempsey, are you familiar with it?
    General Dempsey. I'm not familiar with the French
assessment. I'm familiar with our own.
    Senator Durbin. Well, let me ask. We have it here, a copy
of it here. And it's been published. And we have talked a lot
about sarin gas and other nerve agents. And what we hear from
this report, and I'd ask you if it's close to what your
assessment is, the Syrians have more than 1,000 tons of
chemical agents and precursor chemicals, several hundred tons
of sarin, representing the bulk of their arsenal.
    It's also been speculated that they have the missile
capability of delivering these chemical weapons in Israel,
portions of Turkey, Jordan, Iraq, and beyond.
    What is your assessment of their potential when it comes to
the delivery and the capacity, when it comes to the amount, of
chemical agents they have available?
    General Dempsey. Our assessment very closely matches the
French assessment.
    Senator Durbin. I guess my question to you, Mr. Secretary,
Secretary Kerry, is, in light of the vulnerability of these
countries, what has been the response of the Arab and Muslim
world to this? I mean, you've listed four or five who have
stepped forward to say they support our efforts. It would seem
that if this danger in the region is so profound, that we would
have even greater support.
    Secretary Kerry. Senator, I think this is something I'd be
happier discussing in greater detail with you in the closed
session. There are obviously some countries for which public
statements are more complicated than others. And I think we
should talk about that at the other session.
    Senator Durbin. Fair enough.
    General Dempsey, we saw these photographs earlier, these
heartbreaking photographs. Page 3 of the Washington Post this
morning, an ad by a group supporting the President's effort,
has a photograph that's riveted in my mind, as a father and
grandfather, of the children on the floor in shrouds, victims
of this chemical agent gas attack.
    What the administration is asking us for is military
authority to launch additional attacks. What have you been
charged with in terms of the issue of collateral damage from
those attacks as it would affect innocent people and civilians
in the nation of Syria?
    General Dempsey. Senator, the guidance that we've received
on targeting is to maintain a collateral damage estimate of
low. And I'd just briefly, on how we come up with our
assessments of collateral damage, it's based on how much we
know about a target through intelligence, its proximity to
civilian structures, and weapons effects as we decide what
weapon to weaponeer against it.
    And a collateral damage estimate of low means just that,
that we will keep collateral damage lower than a certain
number, which I would rather share with you in a classified
setting.
    That doesn't mean, by the way, that we would have the same
constraint, if you will, in what damage could be done to regime
personnel. So that's a separate issue, although even in that
case I could probably tell you some more things in the
classified setting.
    Senator Durbin. I look forward to that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I thank the
witnesses. And may I say, John, it's very good to see Teresa
here with you in good health and good spirits. And thank you.
So, Teresa, I apologize for what I'm about to do to John.
    Secretary Kerry. Man, there's a setup.
    Senator McCain. John, when you tell the enemy you're going
to attack them--I'm not going to take any time on this. You
tell the enemy you're going to attack them, they are obviously
going to disperse and try to make it harder. I'm looking right
here at an AP story report. Syria is said to be hiding weapons
and moving troops. There's even open-source reporting that they
may be moving some of their assets into the Russian naval base.
    But let's not get--I mean, it's ridiculous to think that
it's not wise from a pure military standpoint not to warn the
enemy that you're going to attack.
    Secretary Hagel, in the Wall Street Journal today, we read
the following: ``Pentagon planners were instructed not to offer
strike options that could help drive Mr. Assad from power: `The
big concern is the wrong groups in the opposition would be able
to take advantage of it,' a senior military officer said.''
    Is there any truth to that, Secretary Hagel?
    Secretary Hagel. Senator, as I've said, the President asked
us for a range of options, and we provided him a range of
options.
    Senator McCain. I am asking if there is any truth to the
Wall Street Journal article.
    Secretary Hagel. Our options were not limited to any--
    Senator McCain. I would just ask if there is any truth to
the story that is in the Wall Street Journal article.
    Secretary Hagel. No.
    Senator McCain. Thank you. Secretary Kerry, in the same
Wall Street Journal article, ``The delay in providing arms to
the opposition in part reflects a broader U.S. approach rarely
discussed publicly, but that underpins its decision making.
According to former and current U.S. officials, the current
administration does not want to tip the balance in favor of the
opposition for fear the outcome may be even worse for U.S.
interests than the current stalemate.'' Is that story accurate?
    Secretary Kerry. No.
    Senator McCain. Thank you.
    Secretary Kerry. And by the way, can I add something,
Senator? On the warning issue, I do not disagree with you about
warning. In fact, the general would not disagree with you
either. And we are all--
    Senator McCain. But the general said it would be just as
easy--
    Secretary Kerry. No, no. We are deeply--
    Senator McCain. Let us not get into that one.
    Secretary Kerry. John, all I want to say to you is that
there were leaks, which are the bane of everybody's existence.
And the fact is that the newspapers began to carry stories
about a strike and targeting well before any decisions were
made. And that began a process of moving.
    So now, there is at least--
    Senator McCain. Okay, I got it. I really would like to move
onto some more important questions if you do not mind.
    Secretary Kerry. Well, I thought all your questions were
important, John.
    [Laughter.]
    Senator McCain. Thank you, John. That is good. I will try
to remember that.
    The President said today that the purpose of the military
action in Syria is not just to respond to Assad's use of
chemical weapons, but to degrade his military capabilities as
part of a broader strategy to change the momentum on the
ground, and, as the President said, ``allow Syria ultimately to
free itself.'' Do you agree with that assessment, John?
    Secretary Kerry. I said up front--I have said several times
here, there will automatically, as a result of degrading his
ability for chemical weapons, there will be downstream impact
which will have an impact on his military capacity.
    Senator McCain. And to allow--
    Secretary Kerry. So I agree with the President.
    Senator McCain. Thank you. General Dempsey, do you agree
with that statement of the President?
    General Dempsey. I agree. I have never been told to change
the momentum. I have been told to degrade capability.
    Senator McCain. Do you think, General, that without a
change in momentum that Syria ultimately could free itself,
Secretary Hagel?
    Secretary Hagel. Well, Senator, I think they all are
connected. Degrading military capability, as you know, is a
pretty significant part of momentum shifts.
    Senator McCain. Secretary Kerry--John--over the weekend,
the Wall Street Journal ran an important op-ed by Dr. Elizabeth
O'Bagy--I hope you saw it--a Syria analyst at the Institute for
the Study of War, who has spent a great deal of time inside
Syria, including just this month. And I want to read her
assessment of the situation on the ground, and I quote the
story:
    ``The conventional wisdom holds that the extremist elements
are completely mixed in with the more moderate rebel groups.
This is not the case. Moderates and extremists wield control
over a distinct territory. Contrary to many media accounts, the
war in Syria is not being waged entirely or even predominantly
by dangerous Islamists and Al-Qaeda diehards. The Jihadists
pouring into Syria from countries like Iraq and Lebanon are not
flocking to the front lines. Instead they are concentrating
their efforts on consolidating control in the northern rebel-
held areas of the country.
    ``Moderate opposition forces, a collection of groups known
as the Free Syrian Army, continue to lead the fight against the
Syrian regime. While traveling with some of these Free Syrian
Army battalions, I have watched them defend Alawi and Christian
villages from government forces and extremist groups. They have
demonstrated a willingness to submit to civilian authority,
working closely with local administrative councils, and they
have struggled to ensure that their fight against Assad will
pave the way for a flourishing civil society.''
    John, do you agree with Dr. O'Bagy's assessment of the
opposition?
    Secretary Kerry. I agree with most of that. They have
changed significantly. They have improved. And I said earlier,
the fundamentals of Syria are secular, and I believe will stay
that way.
    Senator McCain. And I think it is very important to point
out again, as you just said, it is a secular state. They would
reject radical Islamists, and they, in some cases, in the areas
of which they have control, the people are demonstrating
against them is the information I have.
    So when we see these commentators say, well, we do not know
which side will win, we do not know who the bad guys are, if
you agree with this assessment, we certainly know who the bad
guys are. Is that correct?
    Secretary Kerry. I believe we do, for the most part.
    Senator McCain. For the most part.
    Secretary Kerry. There are some worse than al-Nusra, and
they tend to be, most of them, in the northern area and the
east.
    Senator McCain. I thank you. And again, I would like to ask
you again, can you assure the committee that the administration
does not see a protracted stalemate and conflict in Syria as
somehow a good thing or a goal of U.S. policy?
    Secretary Kerry. The goal of U.S. policy is not a
stalemate. The goal is a negotiated solution which results in
the departure of Assad and the free choice of the Syrian people
for their future.
    Senator McCain. And finally, I would like to ask again, if
we reject this resolution, does it not send a serious, as you
already said, a seriously bad message to our friends and allies
alike, encourages our enemies, and would dispirit our friends,
particularly those fighting in Syria, but not only here, but
around the world?
    Secretary Kerry. Senator McCain, I have gotten to know my
counterparts in the Mideast particularly well because of the
number of crises and initiatives that we have had to deal with
in that region. And I cannot emphasize enough how much they are
looking us to now, making judgments about us for the long term,
and how critical the choice we make here will be, not just to
this question of Syria, but to the support we may or may not
anticipate in the Middle East peace process, to the future of
Egypt, to the transformation of the Middle East, to the
stability of the region, and other interests that we have.
    There is no way to separate one thing from all of the rest.
Relationships are relationships, and they are integrated. And
that is why this is so important.
    Senator McCain. But I would also emphasize, if it is the
wrong kind of resolution, it can do just as much damage, in my
view. I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Udall?
    Senator Udall. Thank you. Thank you very much. And I thank
all the witnesses for their testimony and for their service
here today. And I also want to thank Chairman Menendez for the
way he has conducted this hearing.
    Like everyone here, I deplore what Bashar al-Assad has done
to his own people by attacking them with chemical weapons.
Assad has committed an atrocious crime so heinous that
international law singles it out as an assault deserving of
international action.
    But let there be no mistake. I fully agree his horrific
acts deserve an international response. But what should that
response be? That is why we are here today, to ask that
question and many others. And I hope this hearing will do more
than just rubber stamp a decision that has already been made by
this administration. I have grave concerns about what the
administration is asking of us, of our military, and of the
American people.
    Here is the situation as I see it. With limited
international support, we are being told the United States must
retaliate for the use of chemical weapons with a surgical
bombing campaign of our own. We are being told that we are
bombing in order to send a message. But what message are we
sending? To the international community, we are saying once
again the United States will be the world's policeman. You
break a law, and the United States will step in.
    We are on shaky international legal foundations with this
potential strike, and we need to know whether we have exhausted
all diplomatic and economic sanction options to affect Syria's
behavior. We need to increase our attention on the source of
Assad's ability to continue to ruthlessly kill his own people,
and that is support from nations, including Russia and China,
who are cynically trying to hold the moral high ground. Assad
would not be able to maintain his grip on power if he were not
being supported from outside.
    The full force of international outrage should come down on
those nations that are refusing to allow the U.N. to act and
find a solution.
    And finally, I see this potential bombing campaign as a
potential next step toward full-fledged war. We have been here
before. The Iraq War began as an international effort to kick
Saddam Hussein out of Kuwait, and then years of a no fly zone
and air strikes to prevent Saddam from threatening his
neighbors or reconstituting his arsenal of chemical weapons.
And as we all know, this limited military action eventually led
to what is one of the biggest blunders in U.S. foreign policy,
a war that I voted against. Many who voted for it came to
regret that vote.
    Americans are understandably weary. After the fiasco of
Iraq and over a decade of war, how can this administration make
a guarantee that our military actions will be limited? How can
we guarantee that one surgical strike will have any impact
other than to tighten the vice grip Assad has on his power, or
allow rebels allied with Al-Qaeda to gain a stronger foothold
in Syria?
    I take our role extremely seriously here, like many of the
other Senators have said, and I will hear the President and his
team out. The President made the right decision to pursue an
authorization for the use of military force. I hope these
hearings will give the American people the answers they
deserve, but there are troubling questions that need to be
answered.
    And, Secretary Kerry, I want to start with you. You have
assured the American people--I watched your national television
performances that the U.S. action will not include, and I think
you have said this here today, will not include the use of
ground troops, that it will be limited in nature to deter Assad
and others from using weapon of mass destruction. Yet the draft
authorization of force proposed by the administration states
that it would allow the President to use the armed forces, and
I quote here, ``as he determines to be necessary and
appropriate in connection with the use of chemical weapons or
other weapons of mass destruction in the conflict with Syria.''
    Now, this is a very open-ended proposal with no specific
limits on types of forces that would be used, with no limit on
their duration. Why was it proposed in a way that it conflicts
with these statements of no ground troops? And what kind of
language, Secretary Kerry, or the precise language are you
willing to back in terms of showing the American people that we
really mean what we say in terms of no boots on the ground?
    Secretary Kerry. Senator, all good questions, and I will
respond to all of them. But I want to address sort of the
suspicion and concern that you have, which is appropriate. I
think everybody understands that Iraq left a lot of folks
reeling for some period of time, so it is appropriate to ask
the questions you have asked. But please let me try to
emphasize, this is not sending a message per se. This is having
an effect, an impact. This is taking action to achieve
something more than just a message. It is to degrade his
current capacity. It will make it harder for him to do that in
the future, and it will also facilitate our ability to hold him
accountable in the future if he does, and he will know that. So
this will affect his calculation. That is number one. That is
not just a message.
    Senator Udall. Secretary Kerry, by degrading his capacity,
do you not, in fact, make him weaker and make the people out
there, like al-Nusra, and Al-Qaeda, and these other extremist
forces, stronger? And this is what I want General Dempsey to
talk about in a little bit, too.
    Secretary Kerry. Well, I am happy--
    Senator Udall. Could you answer that? Could you answer
that?
    Secretary Kerry. I am happy--
    Senator Udall. By degrading him, you make these extremist
forces stronger, do you not?
    Secretary Kerry. No, I do not believe you do. As a matter
of fact, I think you actually make the opposition stronger, and
the opposition is getting stronger by the day now. And I think
General Idris would tell you that, that he is not sitting
around. His daily concern is not the opposition but Assad and
what Assad is doing with his scuds, with his airplanes, with
his tanks, with his artillery to the people of Syria.
    But I think it is important also to look at this because
you raised the question of does this not make the United States
the policeman of the world. No. It makes the United States a
multilateral partner in an effort that the world, 184 nations
strong, has accepted the responsibility for. And if the United
States, which has the greatest capacity to do that, does not
help lead that effort, then shame on us. Then we are not
standing up to our multilateral, and humanitarian, and
strategic interests.
    Now that said--
    Senator Udall. Can I stop you, Secretary Kerry, just on
that one--
    Secretary Kerry. Any time.
    Senator Udall [continuing]. Because if you are talking
about multilateral efforts, what we are talking about is the
world being able--this is a breach of a treaty. And the world
put within the United Nations that enforcement mechanism, and
what we have done here with Russia and China holding up the
ability of the U.N. to act, we have just turned aside as a
result of that--
    Secretary Kerry. Well, Senator, with all due respect--
    Senator Udall. We should be standing up--we should be
standing up and making sure that they are condemned, those
countries that are not allowing us to move forward to find a
solution where the solution should reside. So I just--
    Secretary Kerry. Well, Senator, I do not disagree that we
should be finding a solution where it resides. But the fact is
that just a few weeks ago--just a few weeks ago--at the U.N.,
we sought a condemnation of a chemical attack without blame,
without citing Assad, without saying who was responsible,
simply a condemnation of a chemical attack. And the Russians
blocked it.
    Senator Udall. Right.
    Secretary Kerry. So we have no illusions. Yes, is the U.N.
Security Council having difficulties at this moment performing
its functions? Yes. Does that mean the United States of America
and the rest of the world that thinks we ought to act should
shrink from it? No. And that is really what is at test here.
    I would urge you--you said how do we know it will not
result in X, or Y, or Z happening if we do not do it. Let me
ask you. It is not a question of what will happen if we do not
do it. It is a certainty. Are you going to be comfortable if
Assad, as a result of the United States not doing anything,
then gases his people yet again, and the world says, why did
the United States not act?
    History is full of opportunity of moments where someone did
not stand up and act when it made a difference. And whether you
go back to World War II, or you look at a ship that was turned
from the coast of Florida and everybody on it lost their lives
subsequently, to German gas, those are the things that make a
difference. And that is what is at stake here.
    And I would say to you, you know, these are troubling
questions. It is a guarantee that if the United States does not
act together with other countries, we know what Assad will do.
That is a guarantee. I cannot tell you what is guaranteed that
some country will do if we do act, but I know what will happen
if we do not. And I am pretty darn clear that a lot of things
that people think will happen will not happen if the United
States acts. It will, in fact, have enforced this international
standard with respect to the use of chemical weapons.
    And if the multilateral institution set up to do it, the
Security Council, is being blocked and will not do it, that
does not mean we should turn our backs and say there is nothing
we can do. That is not the case. And we did it in Bosnia, and
it made a difference. We saved countless numbers of lives, and
I believe, the President of the United States believes, we can
do that now.
    Senator Udall. Well, I do not believe that we should have
given up so easily on using the United Nations--
    Secretary Kerry. We have not given up--
    Senator Udall. Yes, we have. We have not taken Russia to
task. We have not taken China to task. And that is what we
should be pointing out at this point.
    The Chairman. The time--
    Senator Udall. Well, I mean--
    The Chairman. The time of the Senator has expired.
    Senator Udall. I want to respectfully disagree with you,
and say also I very much appreciate your service. I know that
you are trying very, very hard to find on the diplomatic side
as Secretary of State, a peaceful resolution.
    Thank you for your courtesy. Sorry for going over.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. Thank
you for being here.
    Over Labor Day weekend in Wyoming, I heard from people all
across the State. All believe what is happening is Syria is
awful, despicable, do have concerns about the administration
and what the plan really is, what a strategy really is. They
want to know what the core national security interests of the
United States are that are at stake in Syria, what our ultimate
goal of proposed military strikes is, and what happens if the
strikes are not effective.
    And to that end, Mr. Chairman, what exactly is it that we
are going to be voting on. Is it what the White House has set
forward, and when are we going to see the specifics? I think
Senator Durbin also asked about the narrowness or the expanse
of what we will be voting--and would we be voting within the
next 24 hours?
    The Chairman. The chair is working with the ranking member
and others to come to an agreed upon text that we believe would
meet the goals of achieving the ability for the administration
to pursue the military action they have sought the Congress'
support for in a way that would allow them to have the maximum
ability to succeed in that action, and by the same token,
tailor it sufficiently so that this is not an open-ended
engagement, and specifically not with boots on the ground,
American troops on the ground.
    We are not there yet. It is our aspiration to try to get
there before the end of the day, and then to look forward to
the possibility of a markup tomorrow. We will see if we can get
there, and if we do, we will give all members ample notice of
that time.
    We start off in the morning, as I have said, with a
classified briefing, and we will move from there.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate you coming to Congress to seek
legislative authorization for the military action. President
Obama specifically asserted on Saturday that he already had
authority.
    Now, when the British Parliament rejected a motion
supporting UK participation, the prime minister specifically
said that he would respect the will of the British people, and
there would be no British military intervention. Where does
President Obama stand with that now that he has come to
Congress?
    Secretary Kerry. He intends to win the passage of the
resolution.
    Senator Barrasso. And on the case that he does not, is the
plan that he--
    Secretary Kerry. Well, we are not contemplating that--
    Senator Barrasso. Thank you.
    Secretary Kerry [continuing]. Because it is too dire.
    Senator Barrasso. We talked a little bit about the risks of
delays. There are already reports that by delaying military
action, that Assad is moving military assets--hardware,
troops--to civilian neighborhoods. Reports indicate that Russia
plans to send an anti-submarine ship and missile cruiser to the
Mediterranean in the next few days.
    I wonder what this means to our contingency planning and
what this impact is going to be for our military operations.
    General Dempsey. There are already four Russian warships in
the eastern Med, and if they are staying a respectful distance,
I do not see that as a factor.
    Senator Barrasso. Has the administration created--conducted
perhaps a threat assessment of how Russia, how Iran, how
Hezbollah is going to respond to a U.S.-led attack? And what
response do we expect from Syria's allies, including, you know,
Russia, Iran, Hezbollah, to the military action?
    Secretary Kerry. We all agree that that would be best
handled in a classified session.
    Senator Barrasso. In terms of what success looks like, I
think Senator Udall specifically, you know, said what happens
if gases are used again. I am wondering if we do a limited
strike as proposed and still Assad goes back and uses chemical
weapons on his people. Then that engenders an entire new set of
hearings, and how does this end? Where are we a month from now?
    General Dempsey. Well, as I said, Senator, there is--we are
preparing several target sets, the first of which would set the
conditions for follow-on assessments, and the others would be
used if necessary. And we have not gotten to that point yet.
    What we do know is that we can degrade and disrupt his
capabilities, and that should put us in a better position to
make the kind of assessment you are talking about.
    Secretary Kerry. Let me add to that if I can, John. Senator
Feinstein brought this up today at the meeting at the White
House. It would not be sensible to pass this resolution with a
view to degrading his capacity and preventing him from doing
it, if he were foolish enough to do it again. The general does
have follow-on the possibilities.
    And since the objective would remain the same, it would be
important for Assad himself to know that you have not limited
this to one specific moment with respect to chemical weapons.
You can still have a limited authorization, but with respect to
chemical weapons, it would be a huge mistake to deprive General
Dempsey and company of their options to enforce what we are
trying to achieve.
    Senator Barrasso. Trying to achieve, Mr. Secretary, the
negotiated departure of Assad, you keep mentioning trying to
get him to do this from the negotiating table. It seems to me
that somebody who will, as Senator Coons said, go to any length
to stay in power to the point of even using chemical weapons
against his people, that instead would he be just driven to a
more serious level of determination to keep power rather than
the negotiation table?
    Secretary Kerry. John, that is a very appropriate question.
The answer is I do not believe so, and there are a number of
reasons why I do not believe so. And most of them are best
discussed, and I look forward to it with you in the private
session.
    But there are very strong indications from a number of
discussions that have taken place between countries and
individuals over the last months that Assad would not
necessarily avoid making a different decision under certain
circumstances. So I think we ought to leave it at that, but in
the private session, I think we ought to dig into it.
    Senator Barrasso. I was going to ask about the chemical
weapon stockpiles, and maybe you want to reserve this for the
discussion tomorrow as well in terms of steps that we could
take in terms of command and control of the regime's chemical
weapons stockpiles to make sure that these things are protected
in a way that could not continuously be used.
    Secretary Kerry. Absolutely, and I want you to know, and
this is, again, something that ought to be done in the other
session. But I will just say generically, that General Dempsey
and his team have taken great pains, at the instruction of the
President of the United States, to make certain that whatever
we do does not make it--does not make people less safe, or
potentially more exposed to weapons, or that those weapons
would have less control and so forth. All of these things have
entered into the calculation.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso. Just one add-on
to my original response to you. The resolution as sent to us by
the administration will not be the resolution that we will be
working on, but it is a good opening as to what the desires are
and intentions are. But it will not be the specific resolution
we will be working off of.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman,
Secretary Kerry, Secretary Hagel, General. Thank you very much
for being with us and for taking so much time with us.
    We all are referencing the conversations that we have had
over the last week. I have never frankly seen a greater level
of public engagement on an issue since, frankly, the healthcare
reform debate of 2009. And while there are certainly hardliners
that have come to me with a resolution that we should go in or
many more with a resolution that we should stay out, most
people see both sides of this issue. And they frankly
appreciate the fact that they have an American President who
has taken so much time and put in so much thought into arriving
at this decision, even if they disagree. And they frankly
appreciate even more the fact that this President trusts them
and trusts their elected representatives enough to bring this
conversation to the United States Congress, albeit the fact
that it may be a little messy to get from point A to point B.
    And so, given all of the commotion that we will hear from
our constituents, that maybe more than anything else comes out
to me loud and clear.
    I guess when I look at this question, I see two questions
inherent in the one. One, we have to ask ourselves is there a
moral or national security imperative. And I think you have
very plainly made the case, as has the President, that there
have been atrocities committed that we cannot let stand, and a
country that has very vital security interests to the United
States.
    But there is a second question, and that is the one that I
have trouble with and, I think, some of my colleagues have
trouble with, and that is this. Will our action lesson the
acuity of that moral atrocity or advance our national security
interests? There both has to be a problem that needs to be
solved and then a way solve it, and that is why I struggle with
this.
    And frankly, I do not think the fact that I and many others
struggle with that question means that we lack courage or that
we are, frankly, enabling the Syrian regime. I just think it is
that we wonder whether there is a limit to the ability of
American military power to influence the politics on the ground
in the Middle East. And clearly, though there is not some
direct linkage between what happened in Iraq and what happened
in Syria, it does chill the ability of people to believe that
America's military might can influence politics on the ground
in Syria after they have watched the last 10 years.
    The second problem people have is this question of
escalation. And I think one of the most important things,
Secretary Kerry, that you said in your prepared remarks was
this: You said that we would be prepared to respond to, as you
stated, a miscalculation by Assad, whether it be in reprisals
against his own people or attacks against our allies in the
region. That we would be prepared to be respond without going
to war. Now, some people will find that statement a little
incongruous. How do you respond without going to war?
    And so, let me maybe ask the question this way. There are a
variety of responses from Assad. He could launch another
chemical weapons attack against his own people. He could launch
a ferocious conventional weapons attack against his own people.
He could, of course--he or his allies could launch attacks
against our allies in the region.
    I do not expect you necessarily to explain exactly what the
response will be today, but does this resolution that we are
debating today give you the ability to respond to those
reprisals or in any of those situations that I just outlined,
responses within Syria against his own people, or responses
outside of Syria against our allies, would you have to come
back to Congress for a new authorization of force?
    Secretary Kerry. Well--excuse me. Sorry. As I think the
President has made clear and as we have seen in many of these
crises over the course certainly of my career here in the
Senate, I saw presidents do both, and I supported some, and I
opposed others. And on a number of occasions, presidents acted
without the authorization of Congress. So there is no question
but that the President would have the authority, and the right,
and, conceivably, the imperative to respond without any other
authorization if Assad were to attack again.
    And so, I cannot--you know, I cannot speak for the
President in terms of what decision he would make, but he has
the authority, and that right would be available to him.
    Now, if I can just say quickly with respect to, you know,
it is absolutely appropriate to ask the question: Will this
make a difference. It's totally appropriate think about this
question of escalation. But let me say something quickly about
both of those. If the Congress decides not to do this, it is a
guarantee, whether it is with Assad in Syria, or nuclear
weapons in Iran, or nuclear weapons in North Korea, we will
have invited a for-certain confrontation, at some point in
time, that will require you to make a choice that will be even
worse, with the potential of even greater conflict. That I
guarantee you because that is the message that will be sent.
    Now, there is a distinction between this and Iraq, and I
understand all the Iraq--you know. We know we lived through
that here. In Iraq, intelligence purported to suggest that
weapon of mass destruction existed, but we did not know if they
existed. And so, we had a massive invasion in order to try to
find out if they existed, and we found out they did not.
    Here we have weapons of mass destruction that we not only
know do exist, but they have been used, not once, not twice,
not three times, but multiple times we estimate in the teens,
and the opposition estimates more than that. And now, we have
this most recent use of weapon of mass destruction in
contravention of nearly 100 years of a prohibition against
their use. So--
    Senator Murphy. Yeah, but I do not think that is the
dispute. The dispute is not the correlation between
intelligence.
    Secretary Kerry. But the dispute is--the dispute is over
what you are going to do about it.
    Senator Murphy. It is the ability of the military to be
influenced--
    Secretary Kerry. No, no.
    Senator Murphy [continuing]. The reality on the ground.
    Secretary Kerry. Chris, the dispute is what are you
prepared to do about it? That is the dispute. If you believe
that by doing nothing you are going to stand up for the norm
and somehow reduce the threat of the use at some future time,
that is your right to believe that. But I think, and the
President believes deeply, and everybody at this table
believes, that flies against all common sense and all human
behavior.
    Senator Murphy. Mr. Secretary, let me ask just a question
about Iran because I think it is very important and a
compelling narrative here. Let me just ask you this. The
circumstances are very different, not to trivialize what has
happened in Syria, but the stakes of Iran obtaining a nuclear
weapon, which could kill millions, is different than Syria
killing thousands with chemical weapons, and whether or not it
lessens our moral authority to make a different decision with
respect to Iran just because on Syria we decide not to act.
    And second, I worry about this weariness that we have
talked about within the American public, that it may ultimately
make it harder--I am not saying it will, but it could make it
harder for us to rally the American public with respect to a
response to Iran having gone through what could be at least a
slightly protracted engagement with Syria.
    And so, I just--I guess I want to challenge you for a
second on the automatic nature of a failure to step in in Syria
with respect to compromising our ability to respond in Iran.
    Secretary Kerry. Well, let me just make it very, very
clear. The world decided after World War I and the horrors of
gas, and the trenches, and the loss of an entire generation of
young people in Europe that we were never again going to allow
gas to be used in warfare. And so, if all of a sudden at this
moment where in the third instance it was used by Adolf Hitler
to gas millions of Jews, it was used by Saddam Hussein in order
to gas Iraqis and Iranians and his own people, and now it has
been used by Bashar al-Assad, three people in all of history.
    And if the United States knowing it and knowing that we
have drawn a line that the world has drawn with us, is
unwilling to stand up and confront that, it is an absolute
certainty that gas will proliferate.
    We have had sarin gas in a Tokyo subway. Do you really want
to have a situation where that gas may be available to these
groups if it continues to deteriorate, because Assad can use
this gas to continue to subjugate his population that is
looking for a governance that is, you know, representative, and
different, and respectful of their rights? I do not know how we
could live with that.
    Now, is there a difference between gas and a nuclear
weapon? Well, I suppose it would depend on the scale, to be
honest with you. It would depend on the scale. But the world
decided that chemical, biological, and nuclear are the, you
know, prohibited entities of warfare, and we as a Nation and as
we as a global community have struggled to try to enforce that
through the years. It is hard for me to imagine that the United
States would not stand with the world against that.
    Now, is it going to be effective? I am convinced that what
we can do will reduce the possibilities of more use of gas and
degrade Assad's capacity to use this weapon. And I think it is
imperative for us, as I have said again and again, we all have
to take that step. But it is significantly different from what
took place in Iraq originally with respect to weapons that we
did not know existed. And the two just are not similar.
    The Chairman. Senator Paul.
    Senator Paul. Thank you for coming today.
    It is not often that I get to compliment the President. I
can probably count the number of times, maybe on one hand, but
when I first heard that the President was going to come to
Congress, boy, was I pleasantly surprised and I was proud that
he was my President. I did not vote for him and I still am
opposed to him quite a few times, but I was proud that he did
this.
    And I was just about to stand on my feet and clap, and give
him a standing ovation, and then I heard, ``Well, but if I lose
the vote, I will probably go ahead and do the bombing anyway.''
And so, it does concern me. I want to be proud of the
President, but every time I am just about there, then I get
worried that really he does not mean it. That he is going to
sort of obey the Constitution if he wins. So I heard Secretary
Kerry say, ``If we win, sure. But if we lose,'' what?
    I mean, make me proud today, Secretary Kerry. Stand up for
us and say you are going to obey the Constitution and if we
vote you down, which is unlikely, by the way. But if we do, you
would go with what the people say through their Congress, and
you would not go forward with a war that your Congress votes
against.
    Can you give me a better answer, Secretary Kerry?
    Secretary Kerry. I cannot give you a different answer than
the one I gave you. I do not know what the President's decision
is, but I will tell you this. It ought to make you proud
because he still has the constitutional authority, and he would
be in keeping with the Constitution.
    Senator Paul. Well, I disagree with you there. I do not
believe he has the constitutional authority. I think Congress
has this.
    Madison was very explicit. When he wrote ``The Federalist
Papers,'' he wrote, ``That history supposes, or the
Constitution supposes what history demonstrates that the
executive is the branch most likely to go to war, and therefore
the Constitution vested that power in the Congress.'' It is
explicit and runs throughout all of Madison's writings.
    This power is a congressional power and it is not an
executive power. They did not say big war or small war. They
did not say boots on the ground, not boots on the ground. They
said, ``declare war.'' Ask the people on the ships launching
the missiles whether they are involved with war or not.
    If we do not say that the Constitution applies. If we do
not say explicitly that we will abide by this vote, you are
making a joke of us. You are making us into theater. And so, we
play constitutional theater for the President.
    If this is real, you will abide by the verdict of Congress.
You are probably going to win. Just go ahead and say it is
real, and let us have a real debate in this country, and not a
meaningless debate that, in the end, the illusion is to say,
``Oh, well. We had the authority anyway. We are going to go
ahead and go to war anyway.''
    A couple of items.
    Secretary Kerry. Senator, I assure you, there is nothing
meaningless, and there is everything real--
    Senator Paul. Only if you adhere to what we vote on.
    Secretary Kerry [continuing]. --about what is happening
here.
    Senator Paul. Only if our vote makes a difference. Only if
our vote is binding is it meaningful.
    Secretary Kerry. And I will leave to the man who was
elected to be President of the United States the responsibility
for telling you what his decision is if and when that moment
came. But the President intends to win this vote and he is not
going to make prior announcements.
    Senator Paul. We have had a lot of discussion about whether
or not we are going to make the world safer with this. Somehow
we are going to have less chemical weapons, but I think that is
an open question, and I think it is conjecture at best.
    You can say, ``Oh, well. We think Assad will be less likely
to launch chemical weapons after this.'' We may be able to
degrade his capacity somewhat. You have got 1,000 tons. Are we
going to wipe it out? Most reports I hear say we are not even
probably going to directly bomb chemical weapons because of
what might happen to the surrounding population. So my guess is
he still will have the ability.
    Most people say Assad acted very illogically. Why would he
release chemical weapons on his own people when it brought the
anger and enmity of the entire world? So he is already acting
irrationally or illogically. Now, we are going to deter him and
he is going to act in a rational manner.
    I think it is equally likely that he either does it again,
or he does not do it. I do not think you can say for certain
which is better. I do not know that we can say that by
attacking them, he is not going to launch another chemical
attack. Will the region--
    Secretary Kerry. Well--
    Senator Paul [continuing]. Will the region, I have a few of
them and then I will stop.
    Will the region be more stable or less stable? We all say
we want stability in the Middle East, and stability in the
Middle East is a national interest for our country. Will it be
more stable or less stable? I frankly think there are equal
arguments on both sides of that.
    Will Israel be more likely to suffer an attack on them, a
gas attack or otherwise, or less likely? I think there is a
valid argument for saying they will be more likely to suffer an
attack if we do this.
    Will Russia be more likely or less likely to supply more
arms and get more heavily involved in this? I think there is a
valid argument that they may become more likely to be involved.
    Iran, more likely or less likely to be involved with this?
If Iran gets involved, more likely or less likely that Israel
launches a reprisal attack on Iran? There are all kinds of
unknowns that I cannot tell you absolutely the answer and
neither can you, but I think there is a reasonable argument
that the world may be less stable because of this, and that it
may not deter any chemical weapons attack.
    So what I would ask is: how are we to know? How are we to
go home? I have not had one person come up to me and say they
are for this war. Not one person. We get calls by the
thousands. Nobody is calling in favor of this war.
    I did not meet, while I was home all month, I went to 40
cities. I did not have one person come up and say that they
were in favor of going to war. Do they all agree it is a
horrendous thing? Yes. We all agree that chemical attacks are a
horrendous thing, but people are not excited about getting
involved. They also do not think it is going to work, and they
are skeptical of what will occur with this.
    But I would appreciate your response and try to reassure
the rest of us, one, that the vote is meaningful and valid,
that you would adhere to it. And also, that you are convinced
that all of these different items will be better, not worse, by
this attack.
    Secretary Kerry. Well, Senator, I would be very happy to do
that. Will Israel be more likely to suffer an attack, or will
they be safer? Will they be less safe? I can make it crystal
clear to you that Israel will be less safe unless the United
States takes this action.
    Iran and Hezbollah are two of the three biggest allies of
Assad. And Iran and Hezbollah are the two single biggest
enemies of Israel. So if Iran and Hezbollah are advantaged by
the United States not curbing Assad's use of chemical weapons,
there is a much greater likelihood that at some point down the
road, Hezbollah, who has been one of the principle reasons for
a change in the situation on the ground, will have access to
these weapons of mass destruction. And Israel will, for
certain, be less secure.
    Let me just say this--
    Senator Paul. But I would also argue that it would be more
likely that Hezbollah will attack because of this attack in
response.
    Secretary Kerry. And Israel feels quite confident of its
ability to deal with Hezbollah if they were to do so. You will
notice that Israel has, on several occasions in the last year,
seen fit to deal with threats to its security because of what
is in Syria, and not once has Assad responded to that to date.
    I think there are a bunch of things we should talk about in
a classified session. But let me just make it very clear to you
that, you know, you ask these questions, ``Will this or that be
more likely to happen or not likely to happen?''
    If the United States of America does not do this, Senator,
is it more or less likely that Assad does it again? Do you want
to answer that question?
    Senator Paul. I do not think it is known. I do not think--
    Secretary Kerry. Is it more or less likely that he does it
again?
    Senator Paul [continuing]. If you have the attack. I think
it is unknown whether it is more or less likely whether you
have the attack.
    Secretary Kerry. It is unknown? Senator, it is not unknown.
If the United States of America does not hold him accountable
on this with our allies and friends, it is a guarantee Assad
will do it again--a guarantee--and I urge you to go to the
classified briefing and learn that.
    Second, let me just point out to you that with respect to
this question of Americans wanting to go to war. You know, you
have three people here who have been to war. You have John
McCain who has been to war. There is not one of us who does not
understand what going to war means, and we do not want to go to
war.
    We do not believe we are going to war in the classic sense
of taking American troops and America to war. The President is
asking for the authority to do a limited action that will
degrade the capacity of a tyrant who has been using chemical
weapons to kill his own people.
    Senator Paul. But I think by doing so, you announce it.
    Secretary Kerry. It is a limited.
    Senator Paul. You announce--
    Secretary Kerry. It is limited.
    Senator Paul [continuing]. By doing so, you announce in
advance that your goal is not winning.
    Secretary Kerry. But that is not--
    Senator Paul. And I think the last 50 years of Secretaries
of Defense would say if your goal is not to win, we should not
be involved.
    Secretary Kerry. If people are asked, ``Do you want to go
to war in Syria?'' of course not. Everybody, one hundred
percent of Americans, will say no. We say no. We do not want to
go to war in Syria either. It is not what we are here to ask.
    The President is not asking you to go to war. He is not
asking you to declare war. He is not asking you to send one
American troop to war. He is simply saying we need to take an
action that can degrade the capacity of a man who has been
willing to kill his own people by breaking a nearly one hundred
year old prohibition, and will we stand up and be counted to
say, ``We will not do that.''
    That is not, I just do not consider that going to war in
the classic sense of coming to Congress and asking for a
declaration of war, and training troops, and sending people
abroad, and putting young Americans in harm's way. That is not
what the President is asking for here.
    General, do you want to speak at all to that?
    General Dempsey. No, not really, Secretary. Thank you for
offering.
    Senator Kaine. Great. Thank you to all of you. This has
been a good discussion.
    I want to echo what Senator Paul, Senator Durbin, and
others have said. I very much appreciate and celebrated the
President's decision to bring this matter to Congress. I also
believe with others that the Constitution reserves the power to
initiate military action to Congress; 535 people get a vote on
that. There is only one Commander-in-Chief after the vote is
taken, after we do that searching inquiry, it is the Commander-
in-Chief that has to decide how to execute the decided upon
mission. But I applaud the President for doing it.
    I view it not only as a matter of constitutional law. I
view it as reflecting a very important underlying value, and
the value is this: We should not put service members into
initiating battle, putting people into harm's way if they do
not have a consensus behind them, the American public, the
political leadership behind them. To send young men and women
into war, or into a military action, where they are exercising
military options with a divided political leadership class is
the worst thing we can do.
    And so, we need to come to a consensus and then execute on
that consensus whatever it is. And it would be my hope that
Congress' consensus would then be what the President would do
and not otherwise.
    There is a basic principle at stake. I think you stated it
well. It is a principle of international law and American law:
n o use of weapons of mass destruction against civilians.
    I don't know of a higher principle of the relations of
states, of the law of nations, of sort of international legal
morality than no use of weapons of mass destruction against
civilians, and that is the principle that is at stake as we
wrestle with this request of the President on this committee.
That is a principle that is very clear.
    As you said, Secretary Kerry, it is not about if the
weapons of mass destruction exist--they exist. It is not just
whether they will be used. They have been used. They have been
used against civilians. They have been used against civilians
on a massive scale, including women and children.
    And so, it is a principle that is squarely at stake. We
know that Bashar al-Assad does not care about the principle.
Contrary to things that you have said, we know that Vladimir
Putin, until he shows otherwise, does not care about the
principle.
    I hope Congress still cares about the principle. It is a
principle of longstanding origin. Syria signed onto it, the
Geneva Convention. The Soviet Union signed onto the Geneva
Convention and then again, in the 1990s era, Chemical Weapons
Convention as Russia under the leadership of the previous
president, President Yeltsin.
    So we know that there are some who don't care, but I hope
that Congress shows that we do care by our action.
    A couple of questions are, first, Russia. I want to
associate with something that Senator Udall said earlier. The
fact that they--we have not done enough to demonstrate that
Russia has essentially become a pariah nation by being pro
chemical weapons.
    It is hard to read their action and come up with any
conclusion other than the current government of Russia is pro
use of chemical weapons against civilians. We should make them
wear being a pro chemical weapons nation like a rotting carcass
around their neck in every instance we can. So that at some
point, they will ask themselves the question, do we really want
to be the nation that is pro use of chemical weapons against a
civilian population?
    If we make that as painful as we can every day at the U.N.,
even if they are going to block it, we come back with another--
we should make it painful every day. So that at some point,
they will ask themselves the question, why do we want to carry
this water for a dictator who is using chemical weapons against
his own civilians?
    We haven't done enough on that score. The fact that they
are going to block us shouldn't dissuade us. We should do more
and more and more. I think that will ultimately contribute to a
political negotiation.
    I want to ask you the question about the Syrian
opposition's position on chemical weapons. I was unclear about
their position on chemical weapons, but I understand that the
opposition may have made some commitments in compacts that have
been negotiated, Mr. Secretary, that they are anti-chemical
weapons, that they would commit to turn over chemical weapons
to the international community either if they take control of
those weapons during the course of this civil war or whether
they are in the lead in a post Assad government.
    Can you talk about the opposition and their commitment to
get rid of the stockpile of chemical weapons that is currently
being used?
    Secretary Kerry. Yes, we have had some discussions about
that, and I hope that when the president comes here, when
President Jarba comes here that he will make that position
clear to all of you.
    Senator Kaine. That would be very helpful. I think that
would be one of the best things the opposition could do is make
that plain.
    There is a little bit of a confusion. I think we can talk
shorthand here in ways that might make it hard for Senators and
certainly the public to follow. We are here talking about
military action on the same time we are saying there will be no
solution to the civil war that is not a negotiated political
solution. So those can seem to be at odds.
    I want to state my understanding of how they fit together,
and you tell me if I am right or wrong. If we take action,
action to degrade the ability of Syria to use chemical weapons,
action to degrade their ability to violate international law,
it will take away a significant asset that they have in their
battle against the opposition.
    It will level the playing field by removing the ability to
use chemical weapons, and it will, therefore, increase the odds
that the parties will then come to the table to try to figure
out that political solution. Is that the connection between the
military option you are proposing and the stated end goal of a
solution to the civil war only being--only being achieved
through a political end?
    Secretary Kerry. It is the collateral connection to it. It
is not the purpose of it, but it is a collateral connection.
    Senator Kaine. I don't have any other questions, Mr. Chair.
I will save them for tomorrow.
    The Chairman. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Without question, there is great horror and disgust at
Assad's use of chemical weapons and great sympathy for the
people of Syria, that their leader would use chemical weapons
upon his own people and that his murderous regime is so
dedicated to retaining power that they would use those weapons.
    At the same time in our own country, there is great concern
that we could be invoking the law of unintended consequences as
we talk about using our own military in Syria. Back in 2001 and
2002, the threat obviously was that the next attack at the
United States could come in the form of a mushroom cloud from
Iraq. And although there were inspectors on the ground for 100
days in Iraq who could not find it before the war started,
nonetheless, that war began.
    And I think people are understandably apprehensive about
what we are talking about right now because of what did
precipitate that war in Iraq. So I continue to look forward to
additional evidence being presented, and my hope is that we can
act in a way that does not bog us down into the middle of a
Syrian civil war.
    I think there are many people who want us in the middle of
the Syrian civil war, many people. But I don't think that the
American people do. I think they are very wary of having our
country,once again, drawn into a civil war in another country.
    The concern that I think many people have is that we don't
fully understand as well what the reaction of the Russians will
be to this action. So, General, you--and I thank you, General
and Secretary Kerry and Secretary Hagel, for your--this is a
tough job, and we really appreciate the sensitivity and the
professionalism with which you are handling this.
    You talked about the Russians now having four vessels in
Eastern Mediterranean, but you did not seem to be that
concerned about it. Syria is a proxy state of Russia. They
provide the military assistance, the training to Syria.
    Are you concerned in any way that a strike by the United
States could increase the amount of military assistance that
Russia sends into the Syrian regime?
    General Dempsey. It could, Senator. I mean, they--there is
some indication that they have assured the regime that if we
destroy something, they can replace it. But, you know, that is
not a reason for me to hesitate to act.
    And to your point, there are always unintended consequences
of conflict. But as the Secretary has mentioned, we know what
the consequences could be, probably would be, if we do not act.
    Senator Markey. Thank you.
    Mr. Secretary--and Teresa, you look great. You look
absolutely fantastic here today.
    It is my understanding that the U.N. chemical inspection
team left Syria on Saturday and that U.N. Secretary Ban Ki-moon
has directed the team to expedite the mission's analysis of the
samples and information it has obtained. When do we expect to
obtain that data and the analysis made by the U.N., and when do
we expect that information to be made public?
    Secretary Kerry. I am sorry. Which information?
    Senator Markey. The United Nations inspection team.
    Secretary Kerry. Senator--by the way, Mr. Chairman, I am
looking over here at my successor in the United States Senate,
and I don't know if there is a new initiation process here on
the committee, but I notice he doesn't even get a nameplate.
    [Laughter.]
    Secretary Kerry. Oh, all right. I was worried about you.
    Senator Markey. In the House, they put it up for you. So I
am learning what the protocol is over here.
    The Chairman. We are dealing with sequester. So you have to
do it yourself.
    Secretary Kerry. I thought Massachusetts was on an uneven
keel here for a minute.
    Senator, first of all, welcome to the committee and welcome
to the Senate.
    Senator Markey. Thank you.
    Secretary Kerry. It is good to see you here.
    With respect to the U.N. process, we are hearing somewhere,
you know, 3 weeks, anywhere from 2 to 4 weeks, I suppose, is
the range. But I think about 3 weeks is what we have been told.
    Senator Markey. So would it be wise for us to wait for that
information from the United Nations in order to ensure that
there is a signal sent to the international community as to the
veracity of the analysis by the United States that chemical
weapons have been used?
    Secretary Kerry. Well, let me speak to that because it is a
very important and legitimate question. First of all, the
mandate of the United Nations inspection team, which we have
great respect for and we are grateful to them and to Secretary-
General Ban Ki-moon for their courageous effort to go in under
difficult circumstance. And we have obviously pushed for
inspections in other circumstances.
    The distinction here is that their mandate will only allow
them to say that a chemical weapons attack took place. They
have no mandate to assign blame, who did it. And Secretary-
General Ban Ki-moon has reaffirmed that this is, in fact, what
they won't do. They won't assign blame. They will confirm what
happened.
    Now can they provide additional information in terms of
details and some additional evidence? The answer is yes. But
will they tell us anything that we do not know today beyond a
reasonable doubt? The answer is no.
    They can't tell us because they don't have the technical
means or the intelligence operation or the capacity to put
together what we have released to the world in an unclassified
document. And when you add what we have in classified form that
I obviously can't go into here, we have an even more persuasive
case about what has happened here.
    Now let me add to that, if I can, just one more thing. Iran
and Syria itself have both admitted that a chemical weapons
attack took place. So Iran and Syria are already telling us an
attack took place, but they've chosen the improbable and
illogical notion that the opposition did it, not the regime.
    Senator Markey. My only suggestion would be that the United
States declassify a higher percentage of the information that
we have so that the American people and the international
community can see it. And I think that would be helpful in this
whole discussion, that if we declassified, I think it would
actually give more assurance to the international community.
    Secretary Kerry. Senator, I understand. And I have to tell
you, the unprecedented level of declassification already,
according to the intel community, could possibly put at risk
some sources and methods. Now one of the reasons that it was
chosen to release one is somehow it leaked from someplace in
the world, and it was already in several newspapers.
    So, as a result of that, it was--it was further
declassified. But that itself is an intercept, an actual
conversation now out in public that shows the regime
acknowledging its own culpability and expressing fear about the
U.N. discovering it. So there is already, it seems to me, a
sufficient level without tempting fate on sources and methods.
    Senator Markey. Thank you. Thank you, Mr. Secretary.
    And Secretary Hagel, if I may just quickly, on the
administration's draft resolution, would that draft
authorization allow the U.S. military to conduct military
operations outside of Syria?
    Secretary Hagel. No.
    Senator Markey. It would not. And would it allow military
operations against foreign governments other than Syria?
    Secretary Hagel. No.
    Senator Markey. And would it authorize military operations
against nonstate actors?
    Secretary Hagel. No.
    Senator Markey. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Let me, on behalf of the committee, thank all of our
distinguished witnesses. They have been testifying for in
excess of 3 1/2 hours, and I appreciate their information they
have imparted with the committee.
    Let me say that I appreciate the thoughtfulness with which
each member has come to this issue at this hearing and
expressed their concerns and their views, and I have listened
closely and understand some of those concerns. I have listened
to my colleagues particularly express concern as to whether the
actions we conceive would, in fact, deter or degrade the
ability of Assad to pursue chemical weapons attacks in the
future, and I am reminded in a much different context of an
experience I had in my own life.
    General Dempsey is actually originally from my area, Jersey
City and Bayonne. And I grew up in a tough neighborhood, and we
had a bully in the neighborhood. And I was walking along the
street one day, and he just slapped me in the face. And I went
away and told my mom, and she said avoid him. Avoid him, just
avoid him.
    And a week later, I saw the bully again, and I did all my
best to avoid him, and this time he punched me in the nose, and
it was bloody. And I went back to her and said, you know, mom,
I tried to avoid him. She said, well, just avoid him.
    And it wasn't until the third time when we were by a
construction site that I got a piece of wood and whacked the
bully, and that was the end of it. I never got whacked again.
    It is not quite this, but there is a lesson to be learned.
Assad has made a calculation now, by inching up several times,
that he can use chemical weapons; or he believes he can use
chemical weapons without consequence. And in doing so, there is
a global message that, in fact, other state actors and other
nonstate actors may believe they can do so as well.
    That is a critical challenge for the national security of
the United States, and I hope members will consider that as we
move toward final action.
    I want to advise members, I think we are close to a text on
a resolution and so that they should consider that it is likely
that we may very well be in a business meeting sometime after
the classified hearing tomorrow morning, and we look forward to
working with all of the members of the committee.
    Senator Corker, is there anything else?
    Senator Corker.  I think you have said it well enough. I
want to thank the witnesses for spending this much time not
only in the hearing, but also in advance of the hearing.
    I look forward to the classified meeting tomorrow, and I
want to thank all the members for incredible thoughtfulness
throughout all of this. And I appreciate everybody coming back
to be a part of this and taking it so seriously, which I think
everybody will do.
    Thank you.
    The Chairman. With the thanks of the committee, this
hearing is adjourned.
    [Whereupon, at 6:10 p.m., the hearing was adjourned.]
                              ----------


              Additional Material Submitted for the Record


 RESPONSES TO QUESTIONS FOR THE RECORD SUBMITTED TO SECRETARY OF STATE
                 JOHN KERRY FROM SENATOR JOHN BARRASSO


    Question. Is the United States required by law to use force
against the government of Syria for their use of chemical
weapons against their own people? Please provide the specific
law which mandates that the United States take military action.

    Answer. No.


    Question. What is the administration's overall strategy in
Syria?

    Answer. We are committed to ending the violence in Syria
and helping it become a stable country that will support our
national security interests in the heart of the Middle East,
including by controlling, and eventually dismantling, its
chemical weapons stocks as well as containing and eventually
removing terrorist groups from its soil.
    Our goal is a peaceful political transition that results in
Asad's departure and the establishment of a representative and
legitimate government that represents the will of all Syrians.
    The formula for this peaceful political transition already
exists--it is laid out in the Geneva Communique--and Russia,
the UN, EU, Arab League, and other key countries support it.
    The Communique calls for a transitional government chosen
by the mutual consent of the Asad regime as well as the
opposition. That means that both sides will have to choose
people who will protect not one side or the other, but the
rights of all Syrians.
    The opposition supports this goal; the Asad regime does
not.
    To persuade Asad to engage in serious negotiations, the
United States and key partners are increasing the scope and
scale of assistance to the moderate opposition, the Syrian
Coalition and the Supreme Military Council, while working to
stymie the growing influence of extremists.


    Question. How do the military strikes play into the
administration's overall policy on Syria and the region?

    Answer. Our objective is to deter further chemical weapons
use by the regime, to degrade their capacity to carry out
future chemical weapons attacks, and to enforce the
international norm against chemical weapons use so that regimes
like Syria, Iran and North Korea don't believe that they can
act with impunity.
    The indiscriminate and large-scale use of chemical weapons
by the regime on August 21 violates clearly established
international norms against the use of chemical weapons and the
law of war. The international community has been engaged in a
sustained effort to eliminate the use of chemical weapons,
including in response to the agonizing suffering caused by
those weapons during World War I. So it should not be
surprising that leaders from around the world, including the
United Nations Secretary General, the Arab League, and NATO,
have condemned the brutal August 21 attacks as violating these
international norms.
    Countries like Turkey, Jordan and Israel feel threatened by
the Syrian regime's growing use of chemical weapons. The
egregious Syrian behavior threatens to further destabilize this
important region, and thereby threaten core U.S. security
interests.
    The President stated that he has no interest in an open-
ended U.S. involvement in Syria. As we've long made clear--and
as the events of August 21 reinforce--it is imperative that we
reach a comprehensive and durable political solution to the
crisis in Syria. We do not believe there is a military solution
to the conflict in Syria. The United States remains fully
invested in the Geneva peace process, and we will continue
working with Russia and other international partners to move
toward a political transition based on the framework laid out
in the Geneva Communique. The responses that the President is
considering now are specifically designed to deter and prevent
further use of chemical weapons by the Asad regime and to
reduce the risk of proliferation of these weapons.
                              ----------


RESPONSES TO QUESTIONS FOR THE RECORD SUBMITTED TO SECRETARY OF DEFENSE
                 CHUCK HAGEL FROM SENATOR JOHN BARRASSO

Use of Chemical Weapons

    Question. On August 21, 2013, the Assad regime again
crossed President Obama's red line resulting in the death of
1,429 civilians in Syria. What standard did the administration
use to determine that the chemical weapons use on August 21
warrants military action while the previous use of chemical
weapons did not?

    Answer. As I've said before, military action should be a
last resort. Once we determined that chemical weapons (CW) had
been previously used, the President reiterated his warning to
Assad while simultaneously enhancing U.S. military support to
the opposition. We hoped increased support to the opposition
would signal to Assad our seriousness on this matter, and
dissuade him from employing these heinous weapons again. Assad
chose to ignore our warning and proceeded to use CW again, this
time on a much larger scale, flaunting his disregard for
international norms. It is imperative that we demonstrate to
Assad that his use of CW will elicit a strong international
response, one that will deter him and degrade his capabilities
to employ indiscriminate weapons against his own people.

Budget


    Question. When the Department of Defense submitted its
budget request at the beginning of the year, it made clear that
there were shortfalls in the Overseas Contingency Operations
budget and even seemed to indicate there were also shortfalls
in certain parts of the base operating budget.
          a. What is the cost estimate for the military action
        being proposed by President Obama?
          b. Do we have the resources available for military
        actions in Syria?
          c. What U.S. forces and capabilities are currently
        available to engage targets in Syria?
          d. Will a supplemental appropriation request be
        required?

    Answer. a. The President's guidance is that the operations
in Syria be limited in scope, and we expect the costs to be
limited as well. Costs will depend on the details of the
operation. A reasonable range of costs is tens to hundreds of
millions of dollars. I cannot be more precise at this time.
          b. While the fact that this operation comes toward
        the end of a difficult fiscal year does limit
        flexibility, the Department will use remaining
        operating funds to finance any incremental costs in FY
        2013. We will have to determine how to finance any
        incremental FY 2014 costs after we know the status of
        Congressional action on our FY 2014 budget request.
          c. From an unclassified perspective, the Navy has
        four guided missile destroyers in the eastern
        Mediterranean and the aircraft carrier USS Nimitz with
        its supporting vessels in the Red Sea. However, the
        specific force structure depends on final decisions.
          d. The administration has indicated that it does not
        currently plan to submit a supplemental funding
        request.

                                  <all>
</pre></body></html>
